<html>
<title> - LEGISLATIVE HEARING ON H.R. 3144, TO PROVIDE FOR OPERATIONS OF THE FEDERAL COLUMBIA RIVER POWER SYSTEM PURSUANT TO A CERTAIN OPERATION PLAN FOR A SPECIFIED PERIOD OF TIME, AND FOR OTHER PURPOSES; AND H.R. 3916, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 TO VEST IN THE SECRETARY OF THE INTERIOR FUNCTIONS UNDER THAT ACT WITH RESPECT TO SPECIES OF FISH THAT SPAWN IN FRESH OR ESTUARINE WATERS AND MIGRATE TO OCEAN WATERS, AND SPECIES OF FISH THAT SPAWN IN OCEAN WATERS AND MIGRATE TO FRESH WATERS, ``FEDERALLY INTEGRATED SPECIES HEALTH (FISH) ACT''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



  H.R. 3144, TO PROVIDE FOR OPERATIONS OF THE FEDERAL COLUMBIA RIVER 
  POWER SYSTEM PURSUANT TO A CERTAIN OPERATION PLAN FOR A SPECIFIED 
  PERIOD OF TIME, AND FOR OTHER PURPOSES; AND H.R. 3916, ``FEDERALLY 
                INTEGRATED SPECIES HEALTH (FISH) ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 12, 2017

                               __________

                           Serial No. 115-24

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-183 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>         
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                
                                ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                ------                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 12, 2017.......................     1

Statement of Members:

    Beyer, Hon. Donald S., Jr., a Representative in Congress from 
      the Commonwealth of Virginia...............................     4
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:

    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................    10
    Hamilton, Liz, Executive Director, Northwest Sportfishing 
      Industry Association, Oregon City, Oregon..................    23
        Prepared statement of....................................    25
    Heffling, Jack, President, United Power Trades Organization, 
      West Richland, Washington..................................    29
        Prepared statement of....................................    31
        Questions submitted for the record.......................    35
    Keppen, Dan, Executive Director, Family Farm Alliance, 
      Klamath Falls, Oregon......................................    37
        Prepared statement of....................................    39
    Looney, Beth, President and CEO, PNGC Power, Portland, Oregon    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    22
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     7
        Prepared statement of....................................     9
    Mikkelsen, Alan, Acting Commissioner, Bureau of Reclamation, 
      U.S. Department of the Interior, Washington, DC............    12
        Prepared statement of....................................    13
        Questions submitted for the record.......................    15

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    59
                                     


 
  LEGISLATIVE HEARING ON H.R. 3144, TO PROVIDE FOR OPERATIONS OF THE 
  FEDERAL COLUMBIA RIVER POWER SYSTEM PURSUANT TO A CERTAIN OPERATION 
 PLAN FOR A SPECIFIED PERIOD OF TIME, AND FOR OTHER PURPOSES; AND H.R. 
   3916, TO AMEND THE ENDANGERED SPECIES ACT OF 1973 TO VEST IN THE 
  SECRETARY OF THE INTERIOR FUNCTIONS UNDER THAT ACT WITH RESPECT TO 
SPECIES OF FISH THAT SPAWN IN FRESH OR ESTUARINE WATERS AND MIGRATE TO 
   OCEAN WATERS, AND SPECIES OF FISH THAT SPAWN IN OCEAN WATERS AND 
 MIGRATE TO FRESH WATERS, ``FEDERALLY INTEGRATED SPECIES HEALTH (FISH) 
                                 ACT''

                              ----------                              


                       Thursday, October 12, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, McClintock, Gosar, 
LaMalfa, Graves, Hice, Webster; Costa, Beyer, Barragan, and 
Bordallo.
    Also present: Representatives Newhouse and Gianforte.
    Mr. Lamborn. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on two bills: H.R. 3144, 
sponsored by Mrs. McMorris Rodgers of Washington State; and 
H.R. 3916, sponsored by Mr. Calvert of California.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chair. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5:00 
p.m. today.
    Hearing no objection, so ordered.
    I also ask unanimous consent that the gentleman from 
Washington, Mr. Newhouse, be allowed to sit in with the 
Subcommittee and participate in the hearing.
    Without objection, so ordered.
    Welcome to the Committee.
    Mr. Newhouse. Thank you.
    Mr. Lamborn. You will add a lot.
    We will begin with opening statements, starting with 
myself, for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Today, we will consider two common-sense bills 
aimed at improving the recovery of certain Endangered Species 
Act listed fish species, while providing certainty for water 
and power users.
    Throughout the West, Federal and non-Federal hydropower 
dams have been constructed to harness the cleanest, most 
efficient form of energy. Hydropower is a reliable and 
emissions-free source of electricity that accounts for a 
majority of the Nation's total renewable electricity 
generation. Communities throughout my home state of Colorado 
continue to benefit immensely from this source of energy, and 
there are many opportunities for new hydropower development. 
Hydropower can and should be part of our country's all-of-the-
above energy strategy.
    Furthermore, with this Committee advancing bipartisan 
proposals, such as Ms. Herrera Beutler's H.R. 2083, we 
understand the importance of balancing salmon recovery and 
clean hydropower generation.
    We will hear from one of our witnesses today that with 
survival rates as high as 98 percent at some dams, the choice 
does not have to be dams or fish. Rather, both can exist and 
prosper in harmony.
    While dams provide clean, renewable energy throughout the 
West, they also provide other important benefits to their 
regions, including flood control, providing irrigation for some 
of the most productive agricultural areas of the Nation, 
recreation, and allowing a navigation link to international 
markets for American farmers.
    Despite all the benefits it brings to the region, the 
Federal Columbia River Power System has been mired in third-
party litigation, questionable judicial edicts, and onerous 
Federal regulations for decades. The American taxpayers and 
Pacific Northwest ratepayers deserve better.
    The bipartisan legislation, H.R. 3144, introduced by Mrs. 
McMorris Rodgers of Washington, looks to provide certainty and 
reliability to a hydropower system thrust into a state of legal 
purgatory by directing Federal agencies responsible for 
operating the system to do so in a manner consistent with the 
current operation plan until certain reasonable targets are 
met.
    It is important to mention that the current operation plan 
was declared by the Obama administration to be legally and 
scientifically sound, and is supported by the states of 
Washington, Idaho, and Montana, several tribes, and other 
regional stakeholders.
    H.R. 3916, the Federally Integrated Species Health Act, or 
FISH Act, introduced by Mr. Calvert of California, is the 
second bipartisan-supported bill.
    I am surprised to be saying this, but former President 
Barack Obama summed up the need for this bill as well as any of 
us here could. If you take a look at our TV screens, you will 
see a short clip from his 2011 State of the Union address.
    [Video shown.]
    Mr. Lamborn. OK, that was well said, especially the second 
time around. And I have to agree with President Obama on that.
    The FISH Act is a bipartisan solution aimed at clearing up 
regulatory confusion between two Federal agencies. As we will 
hear from the bill's sponsor today, this bill eliminates 
redundancies and overlapping jurisdiction between the Interior 
and Commerce Departments specific to certain Endangered Species 
Act listed fish species.
    These two agencies currently have direct jurisdiction over 
the ESA, and it is clear that they cannot harmonize their views 
on two different fish within the same watershed. It is time for 
a more efficient and holistic approach to manage species under 
one, not two, Federal agencies.
    Clearly, the ESA process is broken, and the Federal status 
quo is not working for species, farmers and ranchers, and rural 
communities that depend on our natural resources. Under the 
status quo, American taxpayers and ratepayers in the Pacific 
Northwest and elsewhere in the West spend, literally, billions 
of dollars each year, resulting from conflicting or duplicative 
Federal regulatory or judicial edicts under the guise of the 
Endangered Species Act.
    These bills represent bipartisan pragmatic solutions, and I 
want to thank Representatives Calvert and McMorris Rodgers for 
being here today, as well as our second panel of witnesses. I 
look forward to hearing from all of you.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today we will consider two common-sense bills aimed at improving 
the recovery of certain Endangered Species Act listed fish species 
while providing certainty for water and power users.
    Throughout the West, Federal and non-Federal hydropower dams have 
been constructed to harness the cleanest, most efficient form of 
energy. Hydropower is a reliable and emissions-free source of 
electricity that accounts for a majority of the Nation's total 
renewable electricity generation. Communities throughout my home state 
of Colorado continue to benefit immensely from this source of energy, 
and there are many opportunities for new hydropower development. 
Hydropower can and should be part of our country's ``all-of-the-above'' 
energy strategy.
    Furthermore, with this Committee advancing bipartisan proposals 
such as Mrs. Herrera-Beutler's H.R. 2083, we understand the importance 
of balancing salmon recovery and clean hydropower generation. We will 
hear from one of our witnesses today that with survival rates as high 
as 98 percent at some dams, the choice doesn't have to be ``dams or 
fish,'' rather both can exist and prosper in harmony.
    While dams provide clean renewable energy throughout the West, they 
also provide other important benefits to their regions, including flood 
control, providing irrigation for some of the most productive 
agricultural areas of the Nation, recreation, and allowing a navigation 
link to international markets for American farmers.
    Despite all the benefits it brings to the region, the Federal 
Columbia River Power System has been mired in third-party litigation, 
questionable judicial edicts and onerous Federal regulations for 
decades. The American taxpayers and Pacific Northwest ratepayers 
deserve better.
    The bipartisan legislation, H.R. 3144, introduced by Mrs. McMorris 
Rodgers of Washington, looks to provide certainty and reliability to a 
hydropower system thrust into a state of legal purgatory by directing 
Federal agencies responsible for operating the system to do so in a 
manner consistent with the current operation plan until certain, 
reasonable targets are met. It is important to mention that the current 
operation plan was declared by the Obama administration to be legally 
and scientifically sound, and is supported by the states of Washington, 
Idaho, and Montana, several tribes and other regional stakeholders.
    H.R. 3916, the Federally Integrated Species Health Act--or FISH 
Act--introduced by Mr. Calvert of California, is the second bipartisan-
supported bill. I can hardly believe I am saying this, but Barack Obama 
summed up the need for this bill as well as any of us could here could. 
If you take a look at our TV screens you will see a short clip from his 
2011 State of the Union address.
    The FISH Act is a bipartisan solution aimed at clearing up 
regulatory confusion between two Federal agencies. As we will hear from 
the bill sponsor here today, this bill eliminates redundancies and 
overlapping jurisdiction between the Interior and Commerce Departments 
specific to certain Endangered Species Act listed fish species. These 
two agencies currently have direct jurisdiction over the ESA and it's 
clear they cannot harmonize their views on two different fish within 
the same watershed. It's time for a more efficient and holistic 
approach to manage species under one, not two, Federal agencies.
    Clearly, the ESA process is broken and the Federal status quo isn't 
working for species, farmers and ranchers, and rural communities that 
depend on our natural resources. Under the status quo, that cost 
American taxpayers and ratepayers in the Pacific Northwest and 
elsewhere in the West spend literally billions of dollars each year 
resulting from conflicting or duplicative Federal regulatory or 
judicial edicts under the guise of the ESA. These bills represent 
bipartisan, pragmatic solutions, and I want to thank Representatives 
Calvert and McMorris Rodgers for being here today as well as our second 
panel of witnesses. I look forward to hearing from all of you.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member----
    Mr. Costa. Mr. Chairman? Is it appropriate for a point of 
order?
    Mr. Lamborn. Yes.
    Mr. Costa. I concur with many of your comments. On the 
video, what the President went on to say, just to highlight 
that, is that when Interior and Commerce are in conflict as to 
the jurisdiction between salmon, whether they are in saltwater 
and freshwater, he went on to humorously say the salmon get 
smoked.
    [Laughter.]
    Mr. Costa. It is nice to have the entirety of it, we didn't 
get the clip there.
    Mr. Lamborn. OK. Thanks for pointing that out. For the sake 
of time we couldn't play the whole thing, but that is a good 
statement. Thanks for adding that.
    I now recognize the Ranking Member for 5 minutes for his 
statement.

STATEMENT OF THE HON. DONALD S. BEYER, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Beyer. Thank you, Mr. Chairman, very much. I want to 
cry foul for throwing our Democratic President at us up front.
    [Laughter.]
    Mr. Beyer. So, to turn to today's hearing, we are going to 
discuss two bills that could have the consequence of 
undermining the Endangered Species Act. We are talking today 
about proposals to undermine protections for salmon and 
steelhead, which are extremely important to commercial, 
recreational, and tribal fishing interests across the country, 
despite the fact that our Nation's salmon runs are currently at 
crisis levels.
    Just this week, we saw reports in the news that, for the 
first time in 20 years, Federal scientists surveying the 
Pacific Northwest salmon population have come up with empty 
nets. A Federal scientist said this week, and I quote, ``We 
have never hauled that net through the water looking for salmon 
or forage fish and not gotten a single salmon . . . Three times 
we pulled that net up, and there was not a thing in it. It was 
alarming.''
    H.R. 3144 will overturn a recent Federal court decision and 
mandate the use of an unlawful operation plan for the Federal 
Columbia River Power System. The operation plan in question has 
already been found insufficiently protective for fisheries, and 
in violation of the Endangered Species Act by a Federal court.
    The bill also blocks short-term spills over Federal dams on 
the lower Snake and Columbia Rivers that are critically 
important for salmon survival and the fishing industry.
    Finally, the bill undercuts a full NEPA review that is 
already underway for the Federal system on the Columbia by 
restricting the study of all reasonable salmon recovery 
alternatives that may reduce energy production, such as 
additional spills or the potential breach of select dams.
    Taking these options off the table before we even study the 
costs and benefits is misguided. The sponsor, Representative 
McMorris Rodgers, and I do agree that dams and fish can co-
exist. I heartily agree. And the debate should not be about 
dams versus no dams, but about striking the appropriate balance 
between things like responsible hydropower development and 
sound fisheries protection.
    For too long there has been an imbalance. Our country built 
thousands of dams during the 20th century before we realized 
the harm they can cause to our Nation's fisheries. So, today we 
are left with many legacy, low-value dams that do not justify 
their cost to our Nation's fisheries and natural resources.
    As we consider what to do about these older, low-value 
dams, our decision making must be guided by the best-available 
science and a consideration of all available options.
    Unfortunately, H.R. 3144 takes us in the wrong direction by 
blocking science-based fisheries management and the study of 
potential changes of the status quo, which is not working for 
anybody on the Columbia.
    The second bill we are discussing today, H.R. 3916, would 
transfer all management of ESA listed anadromous and 
catadromous fish species from NOAA Fisheries to the Secretary 
of the Interior. And I am going to ask our Chairman to spell 
those words for me later.
    [Laughter.]
    Mr. Beyer. Since the Department of the Interior already has 
sole management authority for catadromous species, such as 
American eels, that part of the bill can be ignored. What 
cannot be ignored, though, is the significant negative impacts 
the bill could have on endangered salmon and steelhead.
    While it is critical for Federal agencies to work together 
to manage these species, marine fisheries, and I think, with 
due respect to President Obama's State of the Union, there is 
nothing inherently wrong with moving NOAA and Fish and Wildlife 
Service together. I think the great objection we have is that 
it adds 40 new fish species and populations to Interior's 
responsibility without moving any of the authorizations, the 
funding, the budget, even the authorizations on the 
appropriations side.
    So, we are not quite sure how Fish and Wildlife Service is 
going to manage these new responsibilities with an incomplete 
bill. I respectfully ask my colleagues to collaborate with our 
Federal agencies who are experts in the field, rather than 
rushing through this legislation.
    I am looking forward to a productive discussion and working 
toward a better balance between multiple uses on our rivers. 
Salmon and steelhead are really important, incredibly 
important, to the coastal economies. And it does a disservice 
to all stakeholders to ignore the science and risk extinction 
of these species.
    Thank you, the Members, for being here today, and I look 
forward to all of our witnesses.

    [The prepared statement of Mr. Beyer follows:]
 Prepared Statement of the Hon. Donald S. Beyer, Jr., a Representative 
             in Congress from the Commonwealth of Virginia
    During today's hearing we are discussing two bills that are yet 
another attempt to undermine the Endangered Species Act and drive the 
extinction of our Nation's fish and wildlife. Specifically, we're 
talking about proposals today to undermine protections for salmon and 
steelhead, which are extremely important to commercial, recreational, 
and tribal fishing interests across the country, despite the fact that 
our Nation's salmon runs are currently at crisis levels.
    Just this week we saw reports in the news that, for the first time 
in 20 years, Federal scientists surveying the Pacific Northwest's 
salmon population have come up with empty nets. A Federal scientist 
said this week, ``We have never hauled that net through the water 
looking for salmon or forage fish and not gotten a single salmon. . . 
Three times we pulled that net up, and there was not a thing in it. It 
was alarming.''
    And yet, here we are today to consider two bills that will do 
nothing but accelerate our Nation's salmon declines.
    First on the agenda is H.R. 3144, which would overturn a recent 
Federal court decision and mandate the use of an unlawful operation 
plan for the Federal Columbia River Power System. The operation plan in 
question has already been found to be insufficiently protective for 
fisheries and to be in violation of the Endangered Species Act by a 
Federal court.
    The bill also blocks short-term spills over Federal dams on the 
lower Snake and Columbia River that, as we'll hear in testimony today, 
are critically important for salmon survival and the fishing industry.
    Finally, the bill undercuts a full NEPA review that's already 
underway for the Federal system on the Columbia by restricting the 
study of all reasonable salmon recovery alternatives that may reduce 
energy production, such as additional spills or the potential breach of 
select dams.
    Taking these options off the table before we've even studied their 
costs and benefits is misguided in my view. The sponsor of this bill 
and I do agree on one thing, though. When talking about this bill, Rep. 
McMorris Rodgers recently said that ``dams and fish can co-exist.'' I 
wholeheartedly agree.
    This debate is not about dams versus no dams. The debate is about 
striking the appropriate balance between things like responsible 
hydropower development and sound fisheries protection. For too long, 
there's been an imbalance.
    Our country built thousands of dams during the 20th century before 
we realized the harm they can cause to our Nation's fisheries. So, 
today we are left with many legacy, low-value dams that don't justify 
their cost to our Nation's fisheries and natural resources.
    As we consider what to do about these older, low-value dams, our 
decision making must be guided by the best available science and a 
consideration of all available options.
    Unfortunately, H.R. 3144 takes us in the wrong direction by 
blocking science-based fisheries management and the study of potential 
changes to the status quo, which is not working for anybody on the 
Columbia.
    The second bill we are discussing today, H.R. 3916, would transfer 
all management of ESA listed anadromous and catadromous fish species 
from NOAA Fisheries to the Secretary of the Interior. Since the 
Department of the Interior already has sole management authority for 
catadromous species, such as American eels, that part of the bill can 
be ignored. What cannot be ignored, however, is the significant 
negative impacts the bill would have on endangered salmon and 
steelhead.
    While it is critical for Federal agencies to work together to 
manage these species, marine fisheries, as we all know very well in 
this Committee, require the expertise and framework that NOAA and the 
regional councils provide. We can all agree that salmon recovery is a 
high priority, but I don't think anyone can say that managing a salmon 
in a river is the same as managing a salmon in the open ocean.
    H.R. 3916 would also reduce Interior's already strained budget and 
capacity to manage and recover endangered fish. This bill would add 
nearly 40 new fish species and populations to Interior's 
responsibilities without any specifics on how this would be funded 
after moving out of NOAA's protected resources budget.
    I'd also like to point out that because NOAA Fisheries was not 
informed prior to the hearing notice, we do not know the agency's 
position on the bill. I respectfully advise my colleagues to 
collaborate with our Federal agencies, who are the experts in the 
field, rather than rushing through partisan legislation.
    In closing, I hope that today we can have a productive discussion 
about solutions to recover endangered fish species. We should work 
toward achieving a better balance between multiple uses on our rivers, 
including removal of low-value dams to aid salmon recovery, rather than 
debate a partisan ESA agenda. Salmon and steelhead are incredibly 
important to coastal economies, and it does a disservice to all 
stakeholders to ignore science and risk extinction of these species.
    I'd like to thank the witnesses for being here today. I look 
forward to hearing from you.

                                 ______
                                 

    Mr. Beyer. Mr. Chairman, I yield back.
    Mr. Lamborn. OK, thank you. We just don't want the salmon 
to get smoked.
    [Laughter.]
    Mr. Lamborn. We will now move to our first witness panel to 
hear testimony from our colleagues on their bills.
    As a reminder, you are limited to 5 minutes, but your 
written statement will appear in full in the hearing record.
    I now recognize Representative Calvert from California to 
testify on H.R. 3916, unless----
    Mr. Calvert. I would prefer that we yield to the gentlelady 
from Washington----
    Mr. Lamborn. OK. In that case, I recognize Representative 
McMorris Rodgers from Washington State for 5 minutes to testify 
on H.R. 3144.
    After you are done, if you need to go meet other 
obligations, you will be excused. We will thank you in advance 
for your testimony. But it is up to you.

STATEMENT OF THE HON. CATHY McMORRIS RODGERS, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you. Thank you, Mr. Chairman, 
members of the Committee. Thank you to my colleague here with 
me. I appreciate the kind welcome. It is great to be back, and 
I appreciate the opportunity to be able to testify in front of 
this Committee on which I served for three terms.
    It is also fitting today that we are talking about this 
legislation on the 80th anniversary of Bonneville Power 
Administration (BPA). Congress created BPA in 1937 on the heels 
of the Great Depression to distribute the power generated from 
the development of two federally authorized dams: Bonneville 
and Grand Coulee Dams.
    These marvels of engineering provided the Pacific Northwest 
with the Nation's most affordable, reliable, and renewable 
energy. And still today, over 70 percent of Washington State's 
energy is powered through hydroelectricity, powering our homes, 
our businesses, and our communities.
    During World War II, it was the Federal power supplied by 
BPA that was instrumental in the ramp-up of the aluminum 
industry that went into Boeing's B-17 and B-29 planes and 
powered the production of nearly 750 large ships before the end 
of the war. In the words of President Harry Truman, ``Without 
Grand Coulee and Bonneville dams it would have been almost 
impossible to win this war.''
    It is also the building of the Columbia Snake River System 
that transformed the Pacific Northwest from a dry, barren 
sagebrush land into one of the most productive agriculture 
regions. It also laid the foundation, because of low-cost 
electricity, for our economy today: manufacturing and 
technology.
    In 1945, Congress authorized the construction of four large 
dams along the Snake River--Ice Harbor, Lower Monumental, 
Little Goose, and Lower Granite--to grow what we called the 
Federal Columbia River Power System (FCRPS). These four dams 
are able to power nearly 2 million homes, or a city the size of 
Seattle. They are crucial in meeting BPA's peak loads during 
the hottest days in the summer when the wind does not blow, or 
the coldest parts of winter when we have little sunlight.
    This year, eastern Washington had a harsh winter with many 
days below freezing. During the coldest days, BPA relied on the 
ability of these four dams to ramp up production and meet 
demand. Without this reliable base load, I fear many in eastern 
Washington would have lost power and heat.
    It is important to look back at this history when we think 
about BPA and the future of energy. Just last week, BPA made 
its 34th consecutive payment of $1.3 billion for Fiscal Year 
2017. They were able to do this because our region values low-
cost, carbon-free energy. These dams average fish survival 
rates of 97 percent, despite what some say. Check the facts.
    And while recent warming water in the Pacific Ocean is 
happening--scientists call it a ``blob''--and has slowed salmon 
returns recently, more total salmon have returned this year 
than before many of these dams were built. Over 600,000 fall 
Chinook are forecasted this year--many times higher than when 
they were first listed.
    I think it is important to note that, of the 13 fish listed 
under the ESA, only 4 species pass along the lower Snake River 
dams.
    We have also invested in tremendous research and new 
technologies like fish-friendly turbines, habitat restoration, 
and local collaboration. I mention this local collaboration 
because I want to quote the FCRPS Adaptive Management 
Implementation Plan, which was produced by the Department of 
the Interior, BPA, the Army Corps of Engineers, and NOAA: ``The 
Obama administration undertook an extensive effort to review 
the 2008 FCRPS Biological Opinion'' and found that ``the 2008 
BiOp is biologically and legally sound, is based on the best 
available scientific information, and satisfies the ESA 
jeopardy standard.''
    This BiOp was supported by states, tribal entities, 
utilities, ports, irrigation districts, and other Pacific 
Northwest water users. This has been an unprecedented 
collaboration between these stakeholders. Unfortunately, the 
Oregon Federal District Court ignored these efforts, 
invalidated the BiOp, and set a course that will likely put 
BPA's future and yearly investments of hundreds of millions of 
dollars in fish recovery in jeopardy.
    BPA's rates have gone up nearly 30 percent the last few 
years--5.4 percent projected for both 2018 and 2019. 
Unnecessary litigation and unnecessary spill requirements by 
this Oregon judge only add on to the cost.
    In 2008, BPA has to re-negotiate these contracts, and their 
customers are making decisions now. The needless uncertainty 
that continues to plague the Columbia Snake River System and 
the continued attacks on these lower Snake River dams have 
utilities looking elsewhere, and I don't blame them.
    That is why I have introduced this legislation to provide 
certainty. This bill would simply codify the current BiOp and 
reassert Congress' authority over the dams. Dams and fish can 
co-exist, but we must get out of the courtroom and allow fish 
recovery to continue.
    Thank you, and I yield back.

    [The prepared statement of Mrs. McMorris Rodgers follows:]
Prepared Statement of the Hon. Cathy McMorris Rodgers, a Representative 
                in Congress from the State of Washington
    Thank you Chairman Lamborn.
    I find it fitting today that we are talking about this legislation 
on the 80th anniversary of the Bonneville Power Administration (BPA). 
Congress created BPA in 1937 on the heels of the Great Depression to 
distribute the power generated from the development of two federally 
authorized dams: Bonneville and Grand Coulee Dams. These marvels of 
engineering provided the Pacific Northwest with the Nation's cheapest 
and most reliable energy.
    During World War II, it was the Federal power supplied by BPA that 
was instrumental in the ramp up of the aluminum industry that went into 
Boeing's B-17 and B-29 and powered the production of nearly 750 large 
ships before the end of the war. In the words of President Harry 
Truman, ``Without Grand Coulee and Bonneville dams it would have been 
almost impossible to win this war.''
    In 1945, Congress authorized the construction of four large dams 
along the Snake River--Ice Harbor, Lower Monumental, Little Goose, and 
Lower Granite--to grow what we call the Federal Columbia River Power 
System (FCRPS). These four dams can power 1.8 million homes, or a city 
the size of Seattle, and are crucial to meet BPA's peak loads during 
the hottest days in the summer when the wind doesn't blow or the 
coldest part of winter when the Pacific Northwest encounters little 
sunlight.
    This year, eastern Washington had a harsh winter with many days 
below freezing. During the coldest days, BPA relied on the ability of 
these four dams to ramp up production and meet the demand. Without a 
reliable base load source, I fear many in eastern Washington would have 
lost power and heat.
    It is important to look back at this history when we think about 
BPA, the FCRPS, and the future of energy in our region. Last week, BPA 
made their 34th consecutive payment of $1.3 billion for FY17 to the 
Treasury. They were able to do this because our region values low-cost, 
carbon-free energy that BPA sells as a result of the hydropower 
production along the FCRPS. In Washington State, hydropower accounts 
for almost 70 percent of electricity generation.
    Some argue that these four dams in particular have negatively 
impacted migratory fish. Yet, these dams average fish survival rates of 
97 percent. And while recent ocean impacts--which scientists call a 
``blob''--have slowed salmon returns recently, more total salmon have 
returned this year than before many of the dams were in place. Over 
600,000 fall Chinook are forecasted this year--many times higher than 
when they were first listed. It is also important to note that, of the 
13 fish listed under the Endangered Species Act (ESA), only 4 species 
pass these dams. These fish passage rates are the result of significant 
Federal investments in new technologies like fish friendly turbines, 
habitat restoration, and local collaboration.
    I mention local collaboration because I want to quote the FCRPS 
Adaptive Management Implementation Plan produced by the Department of 
the Interior, BPA, U.S. Army Corps of Engineers, and NOAA, ``the Obama 
administration undertook an extensive effort to review the 2008 FCRPS 
Biological Opinion'' and found that ``the 2008 BiOp is biologically and 
legally sound, is based on the best available scientific information, 
and satisfies the ESA jeopardy standard.'' This BiOp is supported by 
states, tribal entities, utilities, ports, irrigation districts, and 
other Pacific Northwest water users.
    Unfortunately, the Oregon Federal District Court ignored these 
efforts, invalidated the BiOp, and set a course that will likely put 
BPA's future and the yearly investments of hundreds of millions of 
dollars in fish recovery funding in jeopardy.
    BPA's rates have gone up roughly 30 percent the last few years with 
an average increase of 5.4 percent for 2018 and 2019. Unnecessary 
litigation and unnecessary spill requirements only add on to these 
untenable costs.
    In 2028, BPA has to renegotiate their contracts and their customers 
are making decisions now. The needless uncertainty that continues to 
plague the FCPRS and the continued attacks on the Snake River Dams has 
utilities looking elsewhere--and I don't blame them.
    As a result, I introduced bipartisan legislation to provide this 
certainty. This bill would simply codify the current BiOp until 2022 
and prevent unnecessary costs. It also reasserts Congress' authority 
over the dams.
    Fish and dams can co-exist, but we must get out of the courtroom 
and allow fish recovery to continue.

                                 ______
                                 

    Mr. Lamborn. Thank you for your testimony. We will give 
your legislation the serious and thoughtful consideration that 
it deserves.
    Mrs. McMorris Rodgers. Thank you, Chairman.
    Mr. Lamborn. And you are excused if you wish to be. Thank 
you for being here.
    We will now hear from Representative Calvert from 
California to testify on H.R. 3916.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Chairman Lamborn, Ranking Member, and members 
of the Subcommittee, thank you for holding this hearing to 
discuss my legislation, H.R. 3916, the Federally Integrated 
Species Health Act, otherwise known as the FISH Act. It took a 
while to get that acronym down, but we got it.
    [Laughter.]
    Mr. Calvert. This legislation makes a fairly 
straightforward and common-sense change to the Endangered 
Species Act. It is one of the few times I actually agreed with 
President Obama. Yet, as you all know, there is no such thing 
as a simple change to the Endangered Species Act.
    Despite this fact, I do believe that we must not be held 
hostage by the status quo, and will continue to advocate for 
policy changes that can improve the ESA and advance our ability 
to achieve its worthwhile goals of species recovery.
    Currently, under the ESA, the Secretary of the Interior, 
through the U.S. Fish and Wildlife Service, has 
responsibilities for plants, wildlife, and all freshwater fish. 
Meanwhile, the Secretary of Commerce, through the National 
Marine Fisheries Service (NMFS), is responsible for 
implementing ESA with respect to saltwater fish. So, we have 
two separate agencies implementing the same law.
    Our regulators fully understand which agency is responsible 
for each individual species. Unfortunately, these species do 
not live in a bubble, and often we see fish that fall under the 
jurisdiction of the Fish and Wildlife Service and NMFS living 
in the same ecosystem.
    There are numerous examples of how the status quo is not 
working, but in order to be brief, I will focus my comments on 
Mr. Costa and I, our favorite subject, the California Bay 
Delta.
    The Delta is one of two major water sources for the state 
of California. The complex habitat has two listed species: the 
delta smelt regulated by the Fish and Wildlife Service, and the 
Chinook salmon regulated by NMFS, the status of the delta 
smelt, the Chinook salmon that impacts the daily operations of 
the Federal Central Valley Project, and a state water project.
    In the case of the California Bay Delta, we have seen the 
negative consequences of these two agencies enforcing the same 
law in the form of a series of contradictory, conflicting 
regulations. NMFS has increasingly held more water behind 
Shasta Dam, for instance, to protect salmon, while Fish and 
Wildlife has tried to increase flows to reduce the salinity of 
the delta in order to help the smelt.
    The goal of the FISH Act is to eliminate bureaucratic turf 
wars and to ensure cohesive implementation of the Endangered 
Species Act. The bill consolidates all ESA regulatory functions 
within the Fish and Wildlife Service.
    Currently, both fish and people are held hostage by two 
agencies that don't work well together with respect to the 
Endangered Species Act. My bill would end this situation. By 
creating a more unified approach that takes an all-encompassing 
view of species management, we can improve the ESA in a manner 
that benefits species as well as ESA stakeholders. By giving 
the Fish and Wildlife Service the sole authority to enforce 
ESA, we can have multi-species recovery plans that are written 
in a way that species management is done in concert, instead of 
in conflict. And when problems do arise, one agency can solve 
these problems more quickly than two agencies.
    I am grateful to have a bipartisan group of co-sponsors for 
the FISH Act, which includes my California colleagues, Doug 
LaMalfa, David Valadao, Jim Costa, and my good friend and 
fellow appropriator, Mike Simpson. So, these issues with 
Appropriations I think we can resolve.
    Again, thank you for holding this hearing today, and your 
continued leadership on this complex management of the species 
and water infrastructure.
    With that, I yield back the balance of my time.
    Mr. Lamborn. All right. Thank you for your testimony and 
for being here today. You are excused, and we look forward to 
considering your bill thoughtfully and seriously.
    I would now like to call forward our second panel of 
witnesses. I will introduce the panel as they come forward and 
take their seats, so please come and make yourselves 
comfortable.
    Our first witness is Mr. Alan Mikkelsen, Acting 
Commissioner of the Bureau of Reclamation, from Washington, DC; 
our second witness is Ms. Beth Looney, President and CEO of 
PNGC Power from Portland, Oregon, and formerly Kansas; our 
third witness is Ms. Liz Hamilton, Executive Director of the 
Northwest Sportfishing Industry Association from Oregon City, 
Oregon; our fourth witness is Mr. Jack Heffling, President of 
the United Power Trades Organization from West Richland, 
Washington; and our final witness is Mr. Dan Keppen, Executive 
Director of the Family Farm Alliance from Klamath Falls, 
Oregon.
    Thank you all for being here. Each witness' written 
testimony will appear in full in the hearing record, so I ask 
that witnesses keep their oral statements to 5 minutes, as 
outlined in our invitation letter to you and under Committee 
Rule 4(a).
    I also want to explain how our timing lights work. When you 
are recognized, press the talk button to activate your 
microphone. Once you begin your testimony, the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light will appear. At that time you should begin to 
conclude your statement. At 5 minutes, the red light will come 
on. You may complete your sentence, but I would ask that you 
stop at that point.
    Mr. Mikkelsen, you are now recognized for 5 minutes.

  STATEMENT OF ALAN MIKKELSEN, ACTING COMMISSIONER, BUREAU OF 
  RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Mikkelsen. Thank you, Mr. Chairman, Mr. Beyer, and 
members of the Subcommittee. I am Alan Mikkelsen, Acting 
Commissioner for the Bureau of Reclamation. Today, I testify on 
behalf of Department of the Interior. I prepared a written 
statement on H.R. 3144 and ask that it be made part of that 
record, and I am here to summarize the Department's position in 
my brief remarks now.
    First, H.R. 3144 seeks to allow the continued operation of 
the Federal Columbia River Power System, pending the effective 
date of a new biological opinion and a completion of related 
environmental compliance. At a time when, in our litigious 
society, we have practically turned over the operation of 
massive natural resource assets to the Federal court judges, I 
am pleased to testify that the Department of the Interior 
supports the goals of H.R. 3144.
    The Federal Columbia River Power System in our Nation's 
Pacific Northwest consists of 31 federally owned hydroelectric 
power projects. This bill is focused on a subset of 14 of those 
dams and power plants. The largest of these is Grand Coulee 
Dam, the largest hydropower producer in the country, generating 
more than 21 billion kilowatt hours of electricity each year.
    Along with Hungry Horse Dam and 12 other power facilities, 
our smooth operation of the entire system maximizes beneficial 
uses of the Columbia River by generating power, protecting fish 
and wildlife, mitigating flood risks, providing irrigation, 
navigation, and sustaining cultural resources.
    Working through a cooperative effort of five Federal 
agencies, the system is able to contribute about 35 percent of 
the Pacific Northwest's clean and renewable electric energy. It 
allows shipping access from the ocean inland to Lewiston, 
Idaho, a distance of 465 miles, and it provides 17 million 
acre-feet of water storage. Without question, the Federal 
Columbia River Power System is a vital component to the 
economic health not only of the Pacific Northwest, but the 
entire Nation.
    However, since the early 1990s, biological opinions on 
system operations have been the subject of continuous 
litigation. As it stands today, the Federal Government is 
obligated by court order to prepare a new, interim biological 
opinion to replace a 2014 BiOp, and to do so by December 31, 
2018.
    The court also directed Federal agencies to complete a new 
environmental impact statement by March of 2021, and various 
records of decision by September of 2021. This is all in 
addition to a potential long-term BiOp to be adopted in 2022, 
which will undoubtedly also be litigated.
    Managing the development of these numerous court-ordered 
measures puts a strain on our ongoing operations of the system. 
The aim of H.R. 3144 would be to reduce litigation and allow 
the cooperating Federal agencies to focus on the continued 
operation of this vital waterway system until a new biological 
opinion is prepared to cover the period from 2019 to 2022.
    My written statement includes a section-by-section analysis 
of the bill. But for the sake of this testimony, let me repeat 
that we stand ready to work with the Committee to ensure H.R. 
3144 accomplishes our shared interest in providing continued 
stable operations of this vital system.
    The Subcommittee is also considering H.R. 3916. 
Unfortunately, we do not have an OMB-approved statement for the 
record on that legislation at this time. I understand that we 
will be submitting that this afternoon.
    I do, of course, have extensive experience as a fishing 
guide in my previous retirement in our Nation's Pacific 
Northwest, and can even discuss the difference between 
anadromous and catadromous fish or species in my sleep, if 
necessary, and would be happy to take any generic questions in 
that regard.
    Mr. Chairman, again, thank you. That concludes my remarks, 
and I would be pleased to answer any questions the Subcommittee 
may have on these matters.

    [The prepared statement of Mr. Mikkelsen follows:]
 Prepared Statement of Alan Mikkelsen, Acting Commissioner, Bureau of 
       Reclamation, U.S. Department of the Interior on H.R. 3144
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, my name is Alan Mikkelsen and I am the Acting 
Commissioner for the Bureau of Reclamation at the Department of the 
Interior. Thank you for the opportunity to present testimony on behalf 
of the Department regarding H.R. 3144, a bill that aims to allow for 
the continued operation of the Federal Columbia River Power System 
pending the effective date of a new biological opinion and the 
completion of associated environmental compliance. The Department 
supports the goals of H.R. 3144.
                               background
    Before I begin to discuss the Department's views on H.R. 3144, I 
first want to touch upon the Bureau of Reclamation's (Reclamation) 
involvement in the Federal Columbia River Power System (System). While 
the entire System consists of 31 federally-owned hydroelectric power 
projects located on the main-stem of the Columbia River and its major 
tributaries, the bill is focused on a subset of 14 integrated dams and 
power plants.
    Of the 14 federally-owned projects, two are operated by the 
Department of the Interior, including the Grand Coulee Dam, which began 
operation in 1942. It is the largest hydroelectric power producer in 
the United States, generating more than 21 billion kilowatt-hours of 
electricity each year. The 5,223 feet long dam produces nearly a fourth 
of the System's total generation, allows for the irrigation of 
approximately 671,000 acres in east central Washington, anchors flood 
risk management in the river basin, and provides recreational access 
for over 1.2 million visitors to the Lake Roosevelt National Recreation 
Area.
    The other Reclamation facility is the Hungry Horse Dam for which 
construction was completed in 1953. At the time, Hungry Horse was the 
third largest dam, and the second highest concrete dam, in the world. 
Annually, Hungry Horse Dam generates 948.6 million kilowatt-hours of 
electric power.
    Over time, Reclamation integrated its operations of Grand Coulee 
and Hungry Horse Dams with the operations of 12 other federally-owned 
hydroelectric power facilities. These System operations ensure 
coordination among Federal agencies to maximize beneficial uses of the 
Columbia River by generating power, protecting fish and wildlife, 
mitigating flood risks, providing irrigation and navigation, and 
sustaining cultural resources. All together the System contributes 
about 35 percent of the Pacific Northwest's electric generating 
capacity, allows shipping access from the Pacific Ocean 465 miles 
inland to Lewiston, Idaho, and provides 17 million acre-feet of water 
storage. Reclamation operates the System in collaboration with the 
Bonneville Power Administration, which was established in 1937 to 
market and transmit electricity produced from the federally-owned 
hydroelectric power facilities, and the U.S. Army Corps of Engineers, 
which operates and maintains 12 dams within the System for a range of 
purposes including flood control, power generation, and navigation.
    While the System provides numerous public benefits, operation of 
the System is not without adverse impacts; most notably for the 
purposes of H.R. 3144, impacts on populations of Columbia River and 
Snake River salmon and steelhead. The ongoing operation of the System 
has resulted in over two decades of litigation focused on the 
protection of these fish populations.
    In the 1990s, the System and its operators began to experience 
growing pressures associated with impacts on fish and wildlife 
protection. In 1991, the Snake River sockeye salmon was listed as 
endangered under the Endangered Species Act, followed by a dozen more 
endangered or threatened-listings of Columbia and Snake River salmonids 
over the ensuing decade. In 1992, the National Oceanic and Atmospheric 
Administration's National Marine Fisheries Service (NOAA Fisheries) 
issued its first biological opinion for this System. Since then, 
numerous NOAA Fisheries biological opinions on System operations have 
been subject to litigation.
    Most recently, on May 4, 2016, the U.S. District Court for the 
District of Oregon ruled that NOAA Fisheries' 2014 biological opinion 
(2014 BiOp) was arbitrary and capricious, concluding that the 
operations of the System violated the Endangered Species Act 
notwithstanding inclusion of a comprehensive, regionally coordinated 
reasonable and prudent alternative based on 74 categories of protective 
actions, and further that the Army Corps of Engineers and Reclamation 
violated the National Environmental Policy Act of 1969 (NEPA) by 
neglecting to prepare a NEPA document in connection with their records 
of decision implementing the reasonable and prudent alternative 
described in the 2014 BiOp. The U.S. District Court ordered NOAA 
Fisheries to prepare a new interim biological opinion no later than 
December 31, 2018 (2018 BiOp). The Court's July 2016 remand order 
further directed the agencies to complete a new environmental impact 
statement (EIS) by March 26, 2021 and the agencies' respective records 
of decision by September 24, 2021, in addition to the interim 2018 BiOp 
and a potential long-term BiOp on or before the conclusion of the NEPA 
process. The need to balance the ongoing operations of the System and 
achieving compliance with environmental laws is what H.R. 3144 seeks to 
achieve.
                               h.r. 3144
    In our view, H.R. 3144 aims to allow NOAA Fisheries and the Federal 
agencies responsible for System operations to focus on development of a 
long-term biological opinion and EIS without diverting resources for 
preparation of a short-term biological opinion to cover the period of 
2019-2022. We believe H.R. 3144 also aims to reduce litigation over 
System operations during that period. The Department welcomes the 
opportunity to assist the bill sponsors and this Committee to ensure 
H.R. 3144 accomplishes our shared interest in providing continued 
stable operation of the System.
    Section 2 requires the Secretaries of the Interior, Energy and Army 
(Secretaries) to continue operating the System in compliance with the 
2014 BiOp. The Secretaries would continue System operations under the 
2014 BiOp until either September 30, 2022, or the date upon which a 
final biological opinion is in full force and effect, whichever date is 
later. It is our understanding that the sponsors' intent in Section 2 
is to authorize continued system operations under the 2014 BiOp, thus 
alleviating NOAA Fisheries' obligation to complete the 2018 BiOp and 
the other agencies' corresponding need to produce a biological 
assessment. This would allow Federal agencies to focus their resources 
on developing a long-term BiOp.
    Currently, Reclamation's Columbia-Snake Salmon Recovery Office 
along with their colleagues at the other agencies are responsible for 
conducting and implementing all aspects of the Endangered Species Act 
section 7 consultation processes for the System. The same staff 
provides support for litigation, implements compliance with the 
District Court's May 4, 2016, injunction, and provides analysis and 
data to the NEPA process through the preparation of an EIS pursuant to 
the Court's remand order. If the goals of Section 2 were achieved, 
Reclamation and its sister agencies could focus resources on compliance 
with the NEPA process and development of a long-term BiOp while also 
continuing implementation of the 2014 BiOp activities. The 
repositioning of these resources would accordingly benefit the effort 
to identify a quality long-term System solution. We look forward to 
working with you to ensure Section 2 adequately addresses the sponsors' 
intent to ensure the 2014 BiOp governs System operations until the 
dates identified in Section 2.
    Section 3 of the bill would authorize the Secretaries to amend 
portions of the 2014 BiOp and operate the System in accordance with 
such amendments if all Secretaries concur that such an amendment is 
necessary for public safety or transmission and grid reliability, or 
that certain actions, operations or other requirements of the 2014 BiOp 
are no longer warranted. We look forward to working with the sponsors 
and the Committee to clarify the intent of this section concerning the 
requirements applicable to the three Secretaries.
    Section 4 would prohibit any structural modification, action, 
study, or engineering plan that would restrict electrical generation at 
any System hydroelectric dam, or limit navigation on the Snake River, 
absent additional congressional authorization. Specifically, it is our 
understanding that the goal of Section 4 is to prohibit the identified 
agencies from studying removal of System dams through an EIS without 
additional congressional authorization. In this section, the terms 
structural modification, action, study or engineering plan could 
potentially limit Reclamation's ability to conduct routine operations 
and maintenance activities, even if the restrictions to electrical 
generation are incidental to the purpose of the operation and 
maintenance activities.
    We look forward to working with you to ensure Section 4 adequately 
addresses the sponsors' intent without interfering with the ability of 
System operators to conduct operation and maintenance activities 
necessary to meet authorized project purposes and to evaluate a 
reasonable range of alternatives in the EIS.
                               conclusion
    In conclusion, we welcome the opportunity to work with the bill 
sponsors, other appropriate Federal agencies, and this Committee to 
ensure the System continues to provide the full range of public 
benefits to the Pacific Northwest and the Nation at large, while 
managing adverse impacts caused by System operations. This concludes my 
written statement. I would be pleased to answer questions at the 
appropriate time.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Denham to Alan Mikkelsen, 
            Acting Commissioner of the Bureau of Reclamation
    Question 1. Section 3(c)(I)(A) ofthe bill says, that all ``orders, 
determinations, rules, regulations, permits, grants, loans, contracts, 
agreements, certificates, licenses, and privileges . . . issued by the 
Department of Commerce . . . in effect on the effective date of this 
Act . . . shall continue in effect according to their terms until 
modified . . .'' by law or the President.
    In 2014, NMFS issued a ``Recovery Plan (or Sacramento River Winter-
Run Chinook, Central Valley Spring-Run Chinook and Central Valley 
Steelhead.'' The recovery plan is regarded by local water agencies as a 
policy document rather than a scientific determination or a rule or 
regulation, but NMFS uses the plan as the basis and justification for 
ESA regulatory actions in the Central Valley.

    Under Sec. 3(c)(I)(A), which agency--NMFS or USFWS--would be 
responsible for implementing the 2014 recovery plan? If USFWS would be 
responsible for implementation, when would USFWS take over from NMFS 
and how would that transition be accomplished?

    Answer. Should H.R. 3916 become law, the U.S. Fish and Wildlife 
Service (FWS) will be responsible for implementing the 2014 Recovery 
Plan for Sacramento River Winter-Run Chinook, Central Valley Spring-Run 
Chinook, and Central Valley Steelhead upon enactment. While we cannot 
speak to the specifics of how the transition would be accomplished at 
this time, the FWS would work closely with the National Marine 
Fisheries Service (NMFS) regarding past and current implementation of 
the plan in order to ensure a smooth and seamless transition of 
management responsibility.

    Question 2. Section 3(c)(2)(A) ofthe bill says, ``This Act shall 
not affect any proceedings or any application for any benefits, 
service, license, permit, certificate, or financial assistance pending 
on the date ofthe enactment of this Act before an office transferred by 
this Act.''

    The section appears to allow NMFS to retain ESA jurisdiction in an 
ongoing FERC hydroelectric licensing proceedings where NMFS can 
exercise its ``mandatory conditioning'' authority to force FERC to 
require that licensees carry out certain actions, such as providing 
fish passage over Central Valley dams, regardless of cost.

    Under the bill, does NMFS retain its ESA authorities in current 
FERC licensing proceedings? If so, when is a FERC licensing process 
deemed to be ``pending'' --underway--under the bill? For example, does 
the process ``start'' when the applicant for a hydro license files its 
first Notice of Intent, or when FERC issues a formal Request for 
Environmental Assessment (REA) to NMFS, USFWS and other agencies after 
the final license application is filed?

    If NMFS-mandated fishery actions become part of a final hydro 
license issued by FERC, what role, if any, does NMFS have in overseeing 
implementation of its mandated license conditions? Does the bill 
anticipate post-licensing ESA authority will reside with NMFS or USFWS? 
If the latter, how will that transition be accomplished?

    Answer. Should H.R. 3916 become law, at the time of enactment, any 
Federal Energy Regulatory Commission (FERC) hydro licensing proceeding 
NMFS had begun work on in any way would be grandfathered and not 
transferred to the FWS. NMFS would continue to participate in these 
projects until the proceedings are concluded. Once the proceedings are 
concluded, FWS would assume responsibility for overseeing 
implementation of any license conditions that specify a role for NMFS, 
as well as any post-licensing monitoring. While we cannot speak to the 
specifics of how the transition would be accomplished at this time, FWS 
would work closely with NMFS to ensure a smooth and seamless transition 
of management responsibility.

                                 ______
                                 

    Mr. Lamborn. Thank you. We now recognize Ms. Looney for 5 
minutes.

   STATEMENT OF BETH LOONEY, PRESIDENT AND CEO, PNGC POWER, 
                        PORTLAND, OREGON

    Ms. Looney. Good morning, Chairman Lamborn, Ranking Member 
Beyer, and members of the Subcommittee. I appreciate the 
opportunity to testify before you today on H.R. 3144. My name 
is Beth Looney. I am President and CEO of PNGC Power. PNGC is a 
Portland, Oregon-based electric generation and transmission 
cooperative created and owned by 15 electric distributive 
cooperatives.
    As a not-for-profit electric cooperative, PNGC provides all 
the wholesale power requirements of 200,000 member homes, or 
roughly 500,000 individuals, farms, and businesses. PNGC is 
also a member of the National Rural Electric Cooperative 
Association, the NRECA, the service organization for America's 
electric cooperatives.
    In addition to my role at PNGC Power, I also serve on the 
Board of Directors of Northwest River Partners, an alliance of 
utilities, farmers, ports, and businesses that promote the 
economic and environmental benefits of the Columbia and Snake 
Rivers. River Partners' 120-member organization represents more 
than 4 million electric utility customers, 40,000 farmers, 
thousands of port employees, and large and small businesses 
that provide hundreds of thousands of Northwest jobs.
    My goal in providing testimony today is to inform you of an 
issue that weighs heavily in my mind and the minds of those 
public power utilities in the Northwest.
    In 1991, the first salmon species was listed endangered 
under the ESA in the Columbia River Basin. Since that time, the 
cost to mitigate for these now-13 species has been placed upon 
the Bonneville Power Administration, the Federal power 
marketing agency for the hydro dams located in the Basin. 
Bonneville passes through all of their costs, including these 
fish mitigation costs, to their power customers.
    About 80 percent of PNGC's power supply comes from 
Bonneville. Since Bonneville makes up such a large portion of 
PNGC's total power supply costs, I am concerned about its 
rates.
    In Fiscal Year 2016 alone, Bonneville reported total fish 
and wildlife costs of approximately $622 million in 1 year, 
each year. Bonneville reported this makes up about a third of 
Bonneville's total cost of power--a third. In fact, 
Bonneville's customers fund the largest mitigation effort for 
threatened and endangered species in the Nation.
    PNGC and Northwest River Partners are delighted that 
positive biological results have been attained due to these 
monumental efforts to mitigate for these species. However, 
despite these efforts, Bonneville, the U.S. Army Corps of 
Engineers, the Bureau of Reclamation, and NOAA are continually 
hauled into court by plaintiffs with an agenda who place no 
value on Federal science, conducted primarily under both the 
Bush and Obama administrations.
    Now, yet again, due to plaintiff-filed motions for 
injunctive relief, the U.S. Court for the District of Oregon is 
likely to order increased spill over the dams for the 2018 
migration season. It is expected that this $40 million spill 
experiment will cost Bonneville customers another 2 percent 
power rate increase. This 2 percent is on top of a 5.4 percent 
rate increase ushered in last week, and on top of an additional 
30 percent rate increase that was brought in over the past 
several years.
    My rural customers cannot dig any deeper. They are already 
just barely getting by.
    Even more concerning than the recent large rate increases 
is the potential for future rate increases. As outlined in my 
written statement, if Bonneville's rates continue to climb at 
their current trajectory, they will likely not be competitive 
with alternative power supply choices in the region.
    If Bonneville's customers choose more cost-effective 
options, Bonneville will not have a sufficient consumer base to 
cover its costs, costs that include the fish and wildlife 
program. It also puts at risk Bonneville's ability to make its 
annual payment to the U.S. Treasury, which would negatively 
affect the Nation's taxpayers.
    PNGC values the clean, carbon-free, flexible hydropower 
resources that Bonneville provides. However, I have a 
responsibility to supply power to my members at an affordable 
rate, whether that comes from Bonneville or elsewhere.
    So, why am I supporting this bill? This bill keeps in place 
current biological measures vetted by the top Federal 
scientists that protect salmon in the Columbia and Snake Rivers 
until a court-ordered review of Federal hydro system operations 
is complete. It effectively puts a time-out on litigation so 
that Federal agencies can do the environmental review work the 
judge has asked them to do without being sidetracked and 
burdened with litigation expenses and activities. When this 
work is complete, the agencies will be positioned to adopt a 
new salmon plan based on a public, transparent NEPA process and 
the science it yields.
    Thank you, and I welcome any questions you may have.

    [The prepared statement of Ms. Looney follows:]
   Prepared Statement of Beth Looney, President and Chief Executive 
                    Officer, PNGC Power on H.R. 3144
                              introduction
    Chairman Lamborn, Ranking Member Huffman and members of the 
Committee, my name is Beth Looney, President and Chief Executive 
Officer (``CEO'') of PNGC Power (``PNGC Power'' or ``PNGC'').
    I appreciate the opportunity to testify before you today on H.R. 
3144, legislation to require the Federal agencies responsible for 
management of the Federal Columbia River Power System (``FCRPS'') to 
operate the hydropower system in compliance with the Biological Opinion 
(``BiOp'') approved by the National Oceanic and Atmospheric 
Administration (``NOAA'') in 2008/2010 and supplemented in 2014. I look 
forward to discussing how this legislation protects PNGC Power's access 
to renewable, clean, and reliable Federal hydropower while mitigating 
hydropower impacts and protecting Endangered Species Act (``ESA'') 
listed salmon populations.
    PNGC Power is a Portland, Oregon-based electric generation and 
transmission (``G&T'') cooperative owned by 15 Northwest electric 
distribution cooperative utilities. Our company creates value for its 
member systems by providing wholesale power supply, transmission, and 
other management services. PNGC Power is an aggregator of 
geographically diverse loads in a seven state region (Oregon, 
Washington, Idaho, Montana, Utah, Nevada, and Wyoming). By coming 
together as PNGC Power, our member cooperatives have more options than 
any one cooperative could have alone. PNGC Power is also a member of 
the National Rural Electric Cooperative Association (``NRECA''), the 
service organization for America's electric cooperatives.
    In addition to my role at PNGC Power, I serve on the Board of 
Directors of Northwest RiverPartners (``RiverPartners''), an alliance 
of utilities, farmers, ports and businesses that promote the economic 
and environmental benefits of the Columbia and Snake Rivers; fish and 
wildlife policies and programs based on sound science; and clean, 
renewable, reliable and affordable hydropower. RiverPartners' 120 
member organizations represent more than 4 million electric utility 
customers, 40,000 farmers, thousands of port employees, and large and 
small businesses that provide hundreds of thousands of Northwest jobs.
        balancing environmental stewardship and economic growth
    As the President and CEO of a not-for-profit, member-owned electric 
cooperative, I work closely with my staff and PNGC's Board of Directors 
to provide high quality power supply and transmission services that 
improve the quality of life for nearly 200,000 member homes, farms and 
businesses, including those in rural, underserved communities. In the 
context of a rapidly changing energy environment, we seek to identify 
policy solutions that balance the dual priorities of environmental 
stewardship and a universal desire for economic growth and prosperity. 
We believe this legislation does just that.
    In fact, how the Federal hydropower system is operated affects 
every single individual, family and business in the Northwest because 
our economy was created and continues to rely on these hydropower 
resources to stay healthy and thrive. Eighty percent of PNGC's power 
supply comes from the Bonneville Power Administration (``BPA'' or 
``Bonneville''), a nonprofit Federal power marketing administration 
based in the Pacific Northwest. BPA markets wholesale electrical power 
from 31 Federal hydroelectric projects in the Northwest, one non-
Federal nuclear plant and several small non-Federal power plants. BPA 
provides about one-third of the electric power used in the Northwest 
and its resources--primarily hydroelectric--make BPA nearly carbon 
free.\1\
---------------------------------------------------------------------------
    \1\ BPA.gov. https://www.bpa.gov/news/AboutUs/Pages/default.aspx.
---------------------------------------------------------------------------
    On this 80th anniversary of the Bonneville Power Administration, it 
is worth recalling President Franklin Delano Roosevelt's (``President 
Roosevelt's'') vision in 1937 when he signed the Bonneville Project Act 
into law. His goal was ``to deliver the massive benefits of Columbia 
River hydropower--clean, inexpensive electricity--to citizens of the 
Pacific Northwest. It was a revolutionary and compassionate idea--to 
bring down the barriers between the rural poor and dreams of a better 
life by providing power at the cost of production, rather than for 
profit.'' \2\
---------------------------------------------------------------------------
    \2\ BPA.gov. https://www.bpa.gov/news/AboutUs/80thAnniversary/
Pages/80th-Anniversary.aspx.
---------------------------------------------------------------------------
    Much has changed since 1937, but the region's desire for clean, 
affordable, and reliable energy remains. I am optimistic that in the 
21st century, despite the challenges posed by an ever-changing energy 
landscape, the many stewards of the Columbia River System can work 
collaboratively to identify solutions that do right by both the 
environment and the economy.
               bonneville's unsustainable rate trajectory
    President Roosevelt's vision is in peril due to a number of cost 
variables that are putting BPA's financial health at risk. As 
Bonneville's fourth largest power customer, PNGC is concerned about 
BPA's unsustainable rate trajectory. In July 2017, BPA announced a 5.4 
percent average wholesale power rate increase for Fiscal Years 2018 and 
2019. This follows four sequential rate periods with power rate 
increases averaging nearly 8 percent,\3\ meaning BPA's rates have risen 
roughly 30 percent in the last few years.
---------------------------------------------------------------------------
    \3\ BP-18 Rate Proceeding. Administrator's Final Record of 
Decision, July 2017 (Page 2). https://www.bpa.gov/secure/Ratecase/
openfile.aspx?fileName=BP-18-A-04+Final+ROD.pdf&contentType 
=application%2f.pdf.
---------------------------------------------------------------------------
    Even more concerning than the recent large rate increases, is the 
potential for future rate increases up until 2028, which marks the end 
of the current Bonneville contract with its customers. If BPA's rates 
continue to climb at their current trajectory, they will likely not be 
competitive with alternative power supply choices in the region at that 
time. If Bonneville's customers seek out other options, the agency will 
not have a sufficient consumer base to cover its costs, costs that 
include fish and wildlife program spending. It also puts at risk the 
agency's ability to make its annual payment to the U.S. Treasury, which 
would negatively affect the Nation's taxpayers. PNGC values the clean, 
carbon free, flexible hydropower resources that BPA provides. However, 
as an electric cooperative, we have a responsibility to supply power to 
our members at an affordable rate whether that comes from Bonneville or 
elsewhere.
    Bonneville understands these trade-offs very well. According to the 
Administrator's Preface in the BP-18 Final Record of Decision, ``BPA's 
ability to continue meeting its multiple statutory obligations and 
public-purpose objectives depends on maintaining cost competitiveness 
and financial health.'' \4\ Although BPA's power rates are influenced 
by a variety of cost-drivers, for purposes of today's testimony, I will 
focus on one of the largest areas of BPA's budget: BPA's fish and 
wildlife program costs. Specifically, the uncertainty of ongoing 
litigation regarding the operations of the FCRPS for Endangered Species 
Act (``ESA'') listed salmon and steelhead.
---------------------------------------------------------------------------
    \4\ BP-18 Rate Proceeding. (Page 1).
---------------------------------------------------------------------------
 rising fish and wildlife costs driven by the uncertainty of litigation

    In 1991, NOAA listed Snake River sockeye as endangered under the 
ESA. Today, 13 Columbia Basin salmon and steelhead species are listed 
under the Act. Driven by these listings, BPA ratepayers fund the 
largest mitigation program for threatened and endangered species in the 
Nation.\5\ This is an important point worth repeating. BPA's fish and 
wildlife program is paid for through electric rates of utilities that 
buy power from BPA. It is not funded by U.S. taxpayers. Without these 
fish and wildlife costs, BPA's electricity rate to its Northwest public 
utility customers would be about a third lower.\6\
---------------------------------------------------------------------------
    \5\ BPA.gov.    https: // www.bpa.gov /news /pubs /FactSheets /fs-
201305-BPAs-Fish-and-Wildlife-Program-the-Northwest-working-
together.pdf.

    \6\ BPA.gov. https://www.bpa.gov/news/pubs/FactSheets/fs-201402-
BPA-invests-in-fish-and-wildlife.pdf.

    PNGC Power, in partnership with the broader consumer-owned power 
community in the Northwest, remains committed to cost-effective, 
science-based approaches to ensure ratepayer funds committed to this 
important endeavor produce measurable results.\7\ In Fiscal Year 2016, 
Bonneville reported total fish and wildlife costs of approximately 
$621.5 million.\8\ BPA has committed nearly $15.9 billion since 1978 to 
support Northwest fish and wildlife recovery.\9\
---------------------------------------------------------------------------
    \7\ Public Power Council 2017 Fish Facts. http://www.ppcpdx.org/wp-
content/uploads/PPCFishFactsMar17_003.pdf.

    \8\ 2016 Columbia River Basin Fish and Wildlife Costs Report. 
Northwest Power and Conservation Council. https://www.nwcouncil.org/
media/7491102/2017-2.pdf.

    \9\ BPA.gov. https://www.bpa.gov/news/pubs/GeneralPublications/gi-
BPA-Facts.pdf.

    We are pleased that these efforts are yielding real results. More 
salmon are returning to the Columbia River Basin. According to BPA, 
performance-standard testing results range from 96 percent to 98 
percent survival for Spring Chinook at the lower Columbia and Snake 
River dams. The BiOp performance standard is 96 percent average per dam 
survival for Spring Chinook. The Federal system is meeting and in some 
cases exceeding the targets for fish passage at the dams. Combined with 
refined spill operations, the installation of surface passage has 
reduced the percentage of fish that go through the powerhouses, 
decreased fish travel time through the system, and increased overall 
fish survival. Additionally, the large-scale structural and operational 
improvements for fish passage at the dams and the large-scale habitat 
improvement program have resulted in safer conditions for fish passing 
---------------------------------------------------------------------------
through the system and improved conditions for rebuilding capacity.

    Unfortunately, positive results for returning salmon have not put 
an end to the ongoing court battles. For a number of years, over 
multiple administrations, NOAA and the Federal Action Agencies 
(Bonneville, the U.S. Army Corps of Engineers, and Bureau of 
Reclamation) have been in litigation over operations of the FCRPS for 
ESA listed salmon and steelhead.

    Most recently, as a result of plaintiff-filed motions for 
injunctive relief, the U.S. Court for the District of Oregon is likely 
to order increased spill for the 2018 migration season. This approach 
is not without risk to the species,\10\ could threaten electric 
reliability,\11\ and according to hydro system modeling, result in 
approximately $40 million dollars in reduced BPA revenues and/or 
increased power acquisition costs each year for a total of $80 million 
over the 2-year period of the requested injunction.\12\ A rough rule of 
thumb with BPA power rates is that rates increase 1 percent for every 
additional $20 million per year in costs. Given these estimates, we 
expect to see a 2 percent rate increase from the spill surcharge alone.
---------------------------------------------------------------------------
    \10\ United States District Court District of Oregon Portland 
Division. 2017 Declaration of Ritchie J. Graves, National Marine 
Fisheries Service, West Coast Region (Page 4).

    \11\ United States District Court District of Oregon Portland 
Division. 2017 Declaration of Kieran Connolly, Bonneville Power 
Administration (Pages 5-14).

    \12\ 2017 Declaration of Kieran Connolly, Bonneville Power 
Administration (Page 16).

    To address the litigation-driven uncertainty and ensure cost 
recovery, the BPA Administrator announced the adoption of a spill 
surcharge in the agency's Final Record of Decision in the BP-18 Rate 
---------------------------------------------------------------------------
Proceeding. He wrote:

        ``Although not included in the rate increase, another source of 
        significant rate pressure we will face this rate period is the 
        March 27 spill ruling, amended April 3, by the U.S. District 
        Court for the District of Oregon. The court indicated that it 
        will order increased spill for the 2018 spring migration 
        season. The ruling will have cost implications for BPA that we 
        are still evaluating. Therefore, I am adopting a spill 
        surcharge that will allow us to adjust rates in both FY 2018 
        and 2019 based on the cost associated with increased spill and 
        lost generation relative to current spill assumptions. I 
        recognize the uncertainty this places on our customers . . .'' 
        \13\
---------------------------------------------------------------------------
    \13\ BP-18 Rate Proceeding. Administrator's Final Record of 
Decision, July 2017 (Page 2). https: / / www.bpa.gov /secure / Ratecase 
/ openfile.aspx?fileName=BP-18-A-04+Final+ROD.pdf& 
contentType=application%2f.pdf.

    The uncertainty of a spill surcharge coupled with years of 
sequential rate increases is death by a thousand cuts for PNGC's 
200,000 member homes, farms and businesses.
                        a common-sense solution
    My members are frustrated that the Federal science is continually 
scrutinized and litigated by plaintiff groups with an agenda. For close 
to 20 years, over several administrations, rigorous data collection, 
modeling and actions have been undertaken by the Federal Government 
only to be litigated again and again. The 2008/2010 FCRPS BiOp 
(supplemented in 2014) was developed in an unprecedented collaboration 
among the region's states and tribes. It triggered massive investments 
in salmon restoration measures and was based on the best available 
science.
    Once and for all, the Northwest's BPA ratepayers who fund the 
largest mitigation program for threatened and endangered species in the 
Nation, need certainty around BPA's ongoing fish and wildlife costs. 
Let's take a time-out from the courtroom and rally around a practical 
solution.
    On behalf of PNGC Power and Northwest RiverPartners, I am pleased 
to support H.R. 3144. At a time when common cause across the political 
aisle appears elusive, a bipartisan group of Northwest lawmakers have 
come together to propose a common-sense solution.

    Specifically, H.R. 3144 would:

    <bullet> Require the Federal agencies responsible for management of 
            the FCRPS (BPA, the Army Corps of Engineers, and the Bureau 
            of Reclamation) to operate the hydropower system in 
            compliance with the BiOp approved by NOAA in 2008/2010 and 
            supplemented in 2014.

    <bullet> Carry directed Federal hydropower operations through the 
            later of September 30, 2022 or until the court-ordered, 
            comprehensive environmental National Environmental Policy 
            Act (``NEPA'') process concludes and judicial review is 
            complete.

    <bullet> Allow for limited agency flexibility in hydropower 
            operations should there be a need to protect public safely, 
            transmission and/or grid reliability and stability.

    <bullet> Prohibit studies, plans or structural modifications at the 
            dams, which would impair hydroelectric power generation or 
            navigation on the Columbia River without the prior approval 
            of Congress.

    From a practical standpoint, this legislation provides much needed 
relief from the endless litigation by keeping in place a 2014 BiOp 
built upon the best available science from two consecutive 
administrations (the George W. Bush and Obama administrations). This 
BiOp has resulted in wild salmon numbers trending significantly upward 
and improved young salmon survival at dams due to changes in operations 
and the installation of new passage technologies.
    Keeping the 2014 BiOp in place allows the relevant Federal agencies 
to focus on the court-ordered NEPA environmental review process without 
being distracted by litigation. Without this legislation, the agencies 
would be compelled to use their strained resources to author a new 2018 
BiOp without the benefit of the updated science and public input 
provided by the comprehensive NEPA review. That review is looking at 
the entirety of Federal hydropower system operations in the Columbia 
River Basin (the ``Columbia River System Operations Review'') as well 
as the suite of measures in the 2014 Biological Opinion to ensure that 
those measures providing the most benefit to the salmon are implemented 
in a new BiOp. In other words, the legislation appropriately sequences 
the court's processes.
         dam removal is not a reasonable alternative under nepa
    PNGC has been actively involved in the court-ordered NEPA scoping 
process, and on February 3, 2017, provided public comments on the 
Columbia River Power System Operations Environmental Impact Statement 
(``EIS''). Consistent with these comments, we urge the Federal Action 
Agencies to evaluate all major Federal actions affecting listed salmon 
throughout their life cycle. This includes hydropower, habitat, 
harvest, and hatchery actions (the four ``H's''). An all ``H'' approach 
will give the visibility needed to ensure the highest survival gains 
for ESA listed salmon.
    Furthermore, PNGC believes that dam removal should not be 
considered as an alternative under NEPA because it requires 
congressional authorization and appropriations for such action. 
Notably, in the case of the lower Snake River dams, Congress would have 
to reverse course on decades of funding for the operation and 
maintenance of the FCRPS and navigation system created by these dams.
                               conclusion
    The Columbia River is a cherished resource that provides the 
Northwest with the multipurpose benefits of affordable, reliable and 
carbon free electricity, flood control, navigation and recreation.
    As stewards of this great asset, it is our responsibility to get 
off the sidelines and identify practical solutions to tough problems. 
The challenges discussed in my testimony are not new and there is no 
silver-bullet fix, but I am convinced the answer is not to be found in 
the courtroom. PNGC applauds the Republican and Democratic co-sponsors 
of H.R. 3144 for coming together to identify a carefully balanced way 
forward. PNGC looks forward to supporting this proposal as it moves 
through the legislative process.
    Thank you for holding this hearing today and for the opportunity to 
testify. I would be pleased to respond to any questions you might have 
today or in the future.

                                 ______
                                 

 Questions Submitted for the Record by Hice to Beth Looney, President 
                          and CEO, PNGC Power
    Question 1. Why is it that unelected judges and special interests 
are determining operational decisions for dams?

    Answer. Our region's tremendous commitment to species conservation 
is being undermined by Endangered Species Act (``ESA'')-driven 
litigation. As stewards of the Columbia River System, we are committed 
to cost-effective, science-based approaches to ensure utility ratepayer 
funds committed to fish and wildlife restoration produce measurable 
results. However, we are concerned that the positive outcomes for 
returning salmon outlined in my testimony have not put an end to the 
ongoing court battles.

    Specifically, with respect to ESA listed salmon species and Federal 
Columbia River Power System (``FCRPS'') operations, we are frustrated 
that the Federal Government's best available science is continually 
scrutinized and litigated by plaintiff groups with an agenda. For close 
to 20 years, over several administrations (Democratic and Republican 
administrations alike), rigorous data collection, modeling and actions 
have been undertaken by the Federal Government only to be litigated 
again and again.

    The Northwest's Bonneville Power Administration (``BPA'') 
ratepayers, who fund the largest mitigation for threatened and 
endangered species in the Nation, need certainty around BPA's ongoing 
fish and wildlife costs. That is why we are seeking the common-sense 
legislative solution offered by the sponsors of H.R. 3144. This bill 
provides much needed courtroom relief, protects PNGC's access to 
carbon-free Federal hydropower, and allows for the continued mitigation 
of hydropower impacts on ESA listed salmon populations provided by the 
National Oceanic and Atmospheric Administration (``NOAA'') 2014 
Biological Opinion (``BiOp'').

    Question 2. Do you think that one judge, who is unaccountable to 
the people his decisions impact, handing down unilateral decisions is 
good governance?

    Answer. H.R. 3144 rightfully asserts Congress' policy oversight 
role over the operations of eight large federally authorized 
multipurpose dams that supply nearly 60 percent of the energy produced 
in the Northwest. Through this legislative effort, our region's elected 
officials are appropriately expressing their concern that in the 
Northwest, where affordable, plentiful hydropower is critical to our 
economy, environment, and way of life, a lack of action will result in 
unacceptable impacts to electric utility ratepayers.

    At the same time, the judicial branch is an important part of our 
government, and H.R. 3144 respects the role of the court on this issue. 
With respect to the ongoing ESA-related FCRPS litigation, H.R. 3144 
primarily re-sequences events that the Court itself has already 
ordered: First, a full National Environmental Policy Act (``NEPA'') 
review of the impacts of the Federal hydropower system operations on 
the region's iconic fish by September 2022. Then, adoption of a new 
biological opinion based on the public, transparent environmental 
review process and the science it yields. The legislation would prevent 
the court from ordering changes in hydropower system operations in the 
interim, until the NEPA process and a new biological opinion based on 
it is complete.

    Question 3. Who should be making these decisions and who is best 
situated to determine what is best for the local environment?

    Answer. We are supportive of the Federal Government's role in 
preserving, protecting and recovering domestic species as mandated by 
the Endangered Species Act. However, we are concerned that the ESA is 
failing to achieve its key purpose of species recovery and instead has 
become a mechanism for litigation.

    As stewards of the Columbia River System we are committed to cost-
effective, science-based approaches to ensure electric utility 
ratepayer funds committed to fish and wildlife recovery produce 
measurable results. As noted in my testimony, the Bonneville Power 
Administration, through electric rates of utilities that buy BPA power, 
has committed nearly $15.9 billion since 1978 to support Northwest fish 
and wildlife recovery.

    In the context of a rapidly changing energy environment, we seek to 
identify policy solutions that balance the dual priorities of 
environmental stewardship and a universal desire for economic growth 
and prosperity. H.R. 3144 does just that, it protects the region's 
access to carbon-free, reliable Federal hydropower while mitigating 
hydropower impacts and protecting ESA listed salmon populations.

    Question 4. What recommendations do you have to restore operational 
decision making to experts and local stakeholders who are best situated 
to understand the conditions of the local environment?

    Answer. In the near term, specific to FCRPS operations and the 
continued protection of ESA listed salmon, we recommend the swift 
passage of H.R. 3144.

    We also support immediate congressional efforts to update and 
modernize the ESA so that it works better for both species and people. 
This should include a comprehensive review of policy options to make 
the ESA less vulnerable to litigation likely to sidetrack species 
conservation and recovery.

                                 ______
                                 

    Mr. Lamborn. All right, thank you.
    Ms. Hamilton, you are now recognized for 5 minutes.

   STATEMENT OF LIZ HAMILTON, EXECUTIVE DIRECTOR, NORTHWEST 
     SPORTFISHING INDUSTRY ASSOCIATION, OREGON CITY, OREGON

    Ms. Hamilton. Thank you, Chairman Lamborn and Ranking 
Member Beyer, Subcommittee members. I appreciate the 
opportunity to speak with you this morning regarding H.R. 3144. 
It is really an honor to testify before a Subcommittee with 
members from the top sportfishing states in the Nation. It 
means you recognize and appreciate the economic value and the 
tens of thousands of jobs that it sustains.
    I have the good fortune of serving as the Executive 
Director of the Northwest Sportfishing Industry Association, a 
trade group of over 300 members. Our businesses are 
concentrated in the Northwest, but include many companies from 
across the country. Northwest sportfishing sustains 34,500 
family wage jobs, serves over 2 million adult customers and 
children, and contributes nearly $4 billion in economic 
activity.
    While salmon and steelhead mean business in the Pacific 
Northwest, our clients are apprehensive about the future, and 
this bill is a part of that concern. If it becomes law, it will 
lock in an expensive status quo that has failed salmon, it has 
failed fishery-dependent businesses, and rural economies. It 
entrenches an approach that is not working for fish, fishing 
businesses, or, for that matter, energy consumers, shippers, or 
growers.
    The eight Federal dams on the Columbia and Snake Rivers 
inflict tremendous harm to salmon and steelhead fisheries, 
affecting the bottom line for the businesses that depend on 
this valuable and renewable resource. We know dams and their 
reservoirs are the salmon's main cause of human-caused 
mortality, the main source.
    As far back as the 1990s, though, NSIA and the fishermen we 
worked with recognized that spilling water over the tops of 
dams, rather than sending it through the turbines, led to 
higher adult returns. So, in 2005, we secured guaranteed spill 
through a court order. The fish responded immediately and 
delivered big benefits to our industry. By 2012, Snake River 
fall Chinook returns had tripled. In 2013, 1.2 million fall 
Chinook returned to the Columbia and business was booming.
    Columbia River fall Chinook fed fisheries from Alaska to 
California in the ocean, and inland from Oregon to Washington 
and Idaho. The evidence was indisputable that spill works. 
Science shows that additional spill can triple returns. We want 
to repeat this success of the fall Chinook with the Snake River 
spring Chinook, which are currently in deep decline.
    As the first salmon of the season, spring Chinook are 
highly prized by anglers who want to get out on the water after 
being cooped up all winter. They buy licenses, they buy new 
gear, they fill their gas tanks, load their coolers, book a 
guide, book a hotel, and hit the river, spending roughly $115 
each in trip expenditures. But what is so remarkable about 
spring Chinook is that it takes eight anglers on the water for 
one to go home in a creel.
    This makes one spring salmon worth $900 in direct trip 
expenditures. These fish are worth their weight in gold. They 
are sending money to rural communities from Astoria, Oregon to 
Riggins, Idaho.
    The recent judge's order to put a process in place is 
finally breaking through the logjam. Parties are 
collaboratively working together on sensible river operations 
that will help fish and our businesses. Hundreds of thousands 
of citizens have actively engaged with their government through 
the NEPA process.
    Unfortunately, H.R. 3144 goes in reverse, rolling back 
protections and poisoning this collaborative effort. It locks 
into place the old illegal plan through 2022 denying citizens 
their day in court.
    H.R. 3144 would also hamstring processes that allow 
citizens to protect their interest in these fish. It undermines 
the current NEPA review by prohibiting Federal agencies from 
fully studying true costs and benefits of all the recovery 
alternatives.
    Salmon need more help now, not less. Poor ocean conditions, 
combined with poor river conditions, are hammering some of 
these stocks. We cannot control the ocean, but we can take 
steps to improve river conditions for salmon, and spill is our 
most effective near-term tool.
    NSIA business members, leaders focused on the bottom line, 
are frustrated by a bill that limits options, reverses the 
courts, and is bad for business. It is a bad ROI. Again, our 
industry members oppose H.R. 3144 because it interferes with a 
process that is working at a time when salmon declines are on 
the front page.
    Salmon restoration has been an expensive failure, but we 
are finally getting on the right track to address harmful dam 
operations. We respectfully urge this Committee to reject a 
bill that ignores the science, does not solve the problem, 
throws good money after bad. The fish and our sportfishing 
businesses hope we deserve better.
    And I appreciate any questions you may have.

    [The prepared statement of Ms. Hamilton follows:]
   Prepared Statement of Liz Hamilton, Executive Director, Northwest 
             Sportfishing Industry Association on H.R. 3144
    Chairman Lamborn, Ranking Member Huffman, and Subcommittee members, 
thank you for the opportunity to address H.R. 3144. I am the Executive 
Director of the Northwest Sportfishing Industry Association (NSIA), a 
trade organization of nearly 300 sporting goods manufacturers, 
wholesalers, retailers, marinas, and guides. The Northwest Sportfishing 
Industry Association was founded in 1993 by a collection of 
sportfishing industry business leaders who understood the need for a 
strong voice in the local, state, regional and federal governments. The 
majority of NSIA's member businesses are located in Oregon and 
Washington, as well as companies from outside the Northwest that sell 
products for the nearly 25 million annual fishing trips taken by 
Northwest residents and visitors. NSIA is dedicated to preserve, 
restore and enhance sport fisheries and the businesses that are 
dependent on them. For us, salmon and steelhead mean business.
    NSIA's member businesses, our customers and clients, are 
apprehensive about the economic well-being of our industry and 
recreational fishing opportunities in the years ahead. In 2011, the 
sportfishing industry provided 34,500 family wage jobs, serving over 2 
million adult anglers, and contributed over $3.8 billion in economic 
benefit to Washington, Oregon, and Idaho. Across America, roughly 60 
million anglers support more than 828,000 jobs with a $115 billion 
impact on our Nation's economy. I'm pleased to be testifying before a 
Subcommittee with so many members from states in the top 10 for 
sportfishing expenditures such as Florida, California, Louisiana, and 
Virginia. We appreciate that the members understand the importance of 
the manufacturing, wholesale, distribution, retail and tourism jobs 
sustained by sportfishing in their states.
    NSIA and many other businesses, fishermen, conservationists, 
scientists, and citizens oppose H.R. 3144 because it significantly 
weakens salmon restoration efforts at a time when they need to be 
substantially strengthened. The bill takes our businesses and the 
region in the wrong direction, away from the work that is needed to 
craft a salmon plan that works for our fisheries and our communities. 
H.R. 3144 takes us in the wrong direction by:

    <bullet> Overturning a May 2016 court decision finding the 2014 
            Federal Columbia River Power System (FCRPS) Biological 
            Opinion inadequate and illegal.

    <bullet> Blocking an April 2017 court decision that provides much-
            needed protective measures for salmon and steelhead 
            migrating past the Federal dams on the lower Snake River 
            and lower Columbia River starting in 2018.

    <bullet> Constraining the National Environmental Policy Act Review 
            that is central to updating and understanding the available 
            and reasonable options for resolving the Columbia/Snake 
            salmon crisis by hindering the study of alternatives to 
            status quo operation of the dams on the Columbia and Snake 
            Rivers.

    For the fishing industry, H.R. 3144 is a job-killer, plain and 
simple. Scores of communities and thousands of businesses in the 
Pacific Northwest and along the West Coast that depend on fishing, 
whether sport or commercial, will be directly harmed if H.R. 3144 
becomes law. This legislation seeks to lock in a failed status quo that 
is harming our region's iconic salmon and steelhead populations and the 
communities that rely upon them. Existing salmon policies have already 
wasted more than $10 billion on a series of insufficient measures that 
have failed to recover a single one of the 13 protected populations of 
salmon and steelhead in the Columbia Basin. The status quo is not 
working for anyone today, and a different approach is necessary.
    We in the Northwest sportfishing industry strongly oppose this 
attempt to enshrine an expensive salmon policy that has failed fish, 
fishing businesses, energy consumers, utilities, shippers, and growers.
i. the federal dams harm salmon and spill is our most effective action 
          to help stabilize and rebuild imperiled populations
    The eight Federal dams on the lower Columbia and Snake Rivers have 
caused tremendous harm to our salmon and steelhead fisheries and to 
those of us who depend on them. The operation of these dams 
significantly reduces the number of salmon and steelhead that return to 
the Columbia Basin every year. As a consequence, the dams and how they 
are operated, have a direct effect on our businesses' bottom lines. 
They have transformed a dynamic, free flowing river system into a 
series of reservoirs that harbor increased predator populations and 
cause dangerously high water temperatures.
    The dams themselves also pose formidable barriers to migrating 
salmon--particularly to juveniles that must struggle to survive the 
passage through deadly turbines or complex bypass systems. The 
combination of deadly impacts posed by the dams is responsible for up 
to 70 percent of all human-caused mortality for some salmon and 
steelhead populations.
    Because of the serious trouble that many of these stocks continue 
to face as a result of the Federal hydro system, we will not see 
healthy, sustainable, consistently fishable stocks of salmon until the 
Federal agencies implement meaningful lasting changes in the operation 
of the dams that comprise the FCRPS. That is why NSIA has stood with 
the state of Oregon, the Nez Perce Tribe, and a broad coalition that 
includes other sport and commercial fishing advocates, 
conservationists, and clean energy organizations for nearly 20 years in 
an effort to protect and restore these magnificent and irreplaceable 
fish.
    NSIA and its allies have been engaged in litigation over the 
National Marine Fisheries Service's (NMFS) biological opinions (BiOps) 
for the FCRPS since 2000. Since 1994, three different Federal judges 
have rejected five BiOps as unlawful for a variety of reasons, but the 
consistent themes include the agencies' refusal to use the best 
available science and their persistent reliance on speculative actions 
with unproven results rather than address the known problems with the 
dams and management of the hydro system.
    In addition to successfully challenging failed BiOps, we have 
fought hard to hold on to improvements for migrating salmon and 
steelhead through increased spill since 2005. For juvenile salmon and 
steelhead migrating in the Snake and Columbia Rivers, ``spill''--the 
practice of releasing water over the dams' spillways during the 
juvenile migration in spring and summer, rather than sending it all 
through the hydroelectric turbines--indisputably provides the safest 
passage over the FCRPS dams.
    Releasing water over spillways at these eight Federal dams 
increases the survival of juvenile salmon and steelhead by allowing 
them to avoid traveling through the power turbines, a passage route 
that increases mortality by subjecting these fish to life-threatening 
pressure changes and extremely high water velocities. `Spilled' fish 
also survive at higher levels than the fish diverted from turbine 
intakes and ``bypassed'' through a series of Rube Goldberg-like pipes 
and tunnels before being ejected at the lower side of the dam.
    The increased spill levels in place through court order since 2005 
have helped produce better adult returns at a time when other West 
Coast rivers have seen steep declines. The fisheries protected by the 
court-ordered spill in the Snake and Columbia rivers have provided a 
rare measure of security for the businesses of NSIA, and indeed, some 
hope for the future. Fall Chinook salmon, for example, benefited 
immediately from court-ordered spill. The U.S. Army Corps of Engineers 
began aiding juvenile fall Chinook through increased spill in the 
summer of 2005. The investment in spill paid off within 2 years, but 
within 8 short years, two generations for fall Chinook, our industry 
saw the substantial, direct benefits of that protection. By 2012, Snake 
River wild fall Chinook numbers had tripled since Federal Judge 
Redden's spill order. Hatchery and wild stocks of fall Chinook alike 
benefited and our fall fisheries were world class attractions.
    In 2013, for example, over 1.27 million fall Chinook entered the 
Columbia after significant ocean harvest, and provided a tremendous 
benefit to our businesses. Hotels were full, marinas had a 1-year 
waiting list, key tackle items such as Pro Troll flashers made in 
California and Brad's Superbait made in Washington were on backorder. 
Boat orders were on 6-month wait lists. These returns, aided by spill 
during the juvenile outmigration fed sport, commercial and tribal ocean 
fisheries in Alaska, Canada, Washington, Oregon and California, as well 
as freshwater sport, commercial and tribal fisheries in Oregon, 
Washington, and Idaho. Other stocks have also seen some increase in 
both juvenile survival and adult returns. For the past 12 years, the 
fish have been telling us one thing over and over again: spill works.
   ii. salmon need help now and our region needs solutions that will 
                         recover our fisheries
    Our sportfishing businesses and many others in the region had hoped 
that the 2014 BiOp would finally provide a framework that would protect 
and restore salmon and steelhead in the Columbia River basin. 
Unfortunately, the Federal Government missed another opportunity to get 
this right. The 2014 BiOp maintained the same dam operations that have 
been in place since 1995 and that have failed to restore salmon and 
steelhead and the recreational, commercial, and tribal economies that 
rely on them. NMFS and the other Federal agencies made this decision 
despite their access to more than two decades of peer-reviewed 
scientific evidence demonstrating that increasing spill levels increase 
salmon and steelhead survival. Rather than build on the success of 
spill, the 2014 BiOp allowed the Federal dam agencies to actually 
reduce in some circumstances the spill levels that have been in place 
under Court injunction for the last 12 years. In other words, it 
allowed them to cut back on investments with the highest returns.
    In May of 2016, the U.S. District Court for the District of Oregon 
ruled that the Federal agencies' approach to salmon protection in the 
2014 BiOp was, like its predecessors, inadequate and illegal. In a 
thorough 150-page opinion, the Court addressed in detail the Federal 
Government's multiple violations of the Endangered Species Act and the 
National Environmental Policy Act. The Court ordered the Federal 
agencies to develop a new plan that considers all relevant information 
and then carefully evaluates a full range of reasonable dam management 
alternatives, including removal of four Federal dams on the lower Snake 
River. It also required the Federal agencies to both assess and address 
the intensifying effects of climate change on wild salmon and the 
Federal hydro system. As proposed by the Federal agencies (we advocated 
for a 2\1/2\ year time frame), the Court allowed the agencies until 
March 2021 to complete this analysis. Not a single one of the parties 
supporting the 2014 BiOp--including the Federal agencies, states, or 
the navigation and electric utility interests--have pursued an appeal 
of this decision: it is the accepted ``law of the land'' in the 
Northwest.
    Importantly, the Court found that current dam operations under the 
2014 Biological Opinion cannot ensure the survival or recovery of the 
fish and are vastly unresponsive to their current biological needs. 
That is why NSIA and its allies in the tribal, sport, and commercial 
fishing communities asked the Court this past winter--as an interim 
measure--to order the agencies to increase spill, our most effective, 
near-term measure to boost survival for these species, from April 
through June for spring Chinook.
    After a detailed review of the evidence and thousands of pages of 
scientific and technical testimony, the Court in April of 2017 ordered 
Federal dam operators to incrementally increase spill starting in the 
spring of 2018. The Court specifically required Federal, state, and 
tribal fishery scientists to work together to develop a near-term plan 
for dam operations that will release more water over the dams' 
spillways to improve juvenile salmon survival from April to June, while 
also complying with all state water quality standards and ensuring 
navigation safety. That work among the fishery and technical experts 
has been underway since this spring and the new annual spill operations 
are scheduled to begin in April 2018.
    This order is a tremendously encouraging development for our 
industry: the increased spill required by the Court's order for 2018 
means that we are poised to repeat the success we have seen with fall 
Chinook for several other stocks, including Snake River spring Chinook, 
sockeye and steelhead. Currently, Snake River spring Chinook do not 
return in numbers sufficient to replace the previous generation's 
spawning adults. Decades of monitoring and data demonstrate that adding 
spill for baby spring Chinook could triple the number of returning 
adults.
    NSIA members are seeking increased spill for spring Chinook which 
are among the most prized sportfish in the region. Because they are the 
first salmon run of the year, anglers have been waiting all winter and 
are eager to get out fishing. Anglers buy their licenses, pack the 
bearings on their trailers, repair and replace their gear, buy the 
latest, greatest in terminal gear, fill their gas tanks, load their 
coolers and hit the river. The lucrative Columbia River spring Chinook 
fishery tees up the entire year for our industry. And the economic 
benefits of these fish to rural communities from Astoria, Oregon to 
Riggins, Idaho are huge. This is because on average, it takes eight-
plus angler trips to land just one spring Chinook. For every eight 
anglers out fishing, only one springer goes home. Research has shown 
that the trip expenditures in the Columbia spring fishery average $115 
per trip. This makes a springer in the creel worth over $900 just in 
direct trip in expenditures--not counting the purchase of fishing 
tackle or other durables such as boats, motors, trailers or 
electronics, for example. These fish are worth their weight in gold!
 iii. we oppose this bill because it locks in a plan that harms salmon 
                         and fishing businesses
    At a time when our region has a chance to help struggling salmon 
populations and break through the costly log jam that has held back 
salmon recovery in the Northwest for more than two decades, H.R. 3144 
seeks to roll back protections for fish and enshrine a status quo that 
has brought massive expenditures, but few actual results. We finally 
have the opportunity to break free from 25 years of failed salmon 
policies. Rather than nurturing this opportunity, H.R. 3144, will make 
it much more difficult.
H.R. 3144:
(1) Overturns a May 2016 court decision finding the 2014 FCRPS 
        Biological Opinion inadequate and illegal.

    The bill seeks to deny citizens their day in court by reversing the 
district court's sound decisions rejecting the 2014 BiOp. This 
decision, issued 18 months ago and reached after thorough and extensive 
consideration of the evidence, is settled law. None of the multiple 
interests and parties contests the Court's well-reasoned decision and 
no party has pursued an appeal. In over-riding a Federal court 
decision, H.R. 3144 would feed a damaging trend for undermining laws 
that allow citizens from across the political spectrum to go to court 
to hold the government accountable for its actions. Access to a court 
of law is a cornerstone of American democracy and fundamental part of 
our functioning government. The courts are essential for enforcement of 
our laws and serve as a ``check and balance'' to the failure of 
executive branch to enforce the law. Over-riding independent Federal 
court review of agency actions, as this bill would do, stymies this 
access to justice principle.

(2) Blocks an April 2017 court decision that expands spring spill over 
        the Federal dams on the lower Snake River and lower Columbia 
        River starting in 2018.

    The bill would lock in status quo dam operations through at least 
2022. As our fishermen, and anyone who is reading the headlines are 
keenly aware, salmon need more help now. Cyclically poor ocean 
conditions have joined perennially poor river conditions as a result of 
current dam operations to put fish populations back into a death 
spiral. Because we can't control the ocean, it is all the more 
important that we take effective actions available to us now in the 
part of the salmon lifecycle where humans have the most influence. 
Spill is exactly that. Increasing spill in the spring is exactly the 
kind of prompt measure that we can and must take to boost salmon 
survival in the near-term. Businesses will prosper and the salmon's 
future will be more secure.

(3) Restricts the National Environmental Policy Act Review that is 
        central to updating relevant information, considering all 
        reasonable salmon recovery alternatives, and engaging the 
        public in decision making. If passed into law, H.R. 3144 would 
        prohibit the study of any alternatives that may have the effect 
        of reducing energy production by the Federal hydro system 
        (increased spill, lower Snake River dam removal, and others).

    This bill would undercut a bedrock process that allows citizens to 
protect their interests in these fish. The NEPA process allows citizens 
to speak their minds and to provide their input to help inform the 
government's decisions. It also requires agencies to examine the costs 
and benefits of their decisions and allows the region to make decisions 
based on facts. But in order to do this, the agencies must objectively 
evaluate all reasonable alternatives. H.R. 3144 would undermine this by 
erecting roadblocks to considering river operations that both science 
and the courts have determined to be reasonable alternatives and worthy 
of full and fair consideration.
    The NEPA process has now been underway for a year. So far over 
400,000 citizens across the region and the country have weighed in to 
support robust consideration of strong and effective salmon protection 
measures.
    An approach that severely limits options at a time when salmon are 
most in need of our help is very difficult and frustrating for my 
members--business owners, business leaders, people who have focused on 
the bottom their whole adult life--to understand. When viewed through 
the lens of a return-on-investment, H.R. 3441 is simply not defensible.
    In short, our fishing business members oppose H.R. 3144 because it 
enshrines a status quo that ensures that we as tax and rate-payers get 
back far less money than we spend. The Federal Government's extensive 
use of ratepayer money for salmon restoration has been an expensive 
failure because it does not focus on the core problem for salmon 
recovery--altering Federal dam operations on the Snake and Columbia 
Rivers. With the intensifying impacts of climate change, a continuation 
of the failed status quo for even a few years will doom our endangered 
salmon runs, harm sport and commercial industries in communities 
throughout the Pacific Northwest and saddle Northwest ratepayers with 
billions in added costs for measures that have failed to protect 
salmon. Perpetuating this failed status quo is the true definition of 
insanity. At a time when we should be doing everything we can to help 
imperiled fish and struggling fishing communities, we urge this 
Committee to reject a bill that would prevent our region from doing 
what the science and the fish are telling us is needed most--making 
significant improvement in dam operations starting now with increased 
spring spill. Our fish--and sportfishing businesses--deserve far better 
than H.R. 3144.

                                 *****

The following documents were submitted as supplements to Ms. Hamilton's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --Economics of Northwest Sportfishing

    --Sportfishing in America

    --Trip Expenditures for Columbia River Spring Salmon Fishing

                                 ______
                                 

    Mr. Webster [presiding]. Thank you.
    Mr. Heffling, you are recognized for 5 minutes.

  STATEMENT OF JACK HEFFLING, PRESIDENT, UNITED POWER TRADES 
            ORGANIZATION, WEST RICHLAND, WASHINGTON

    Mr. Heffling. Chairman Lamborn, Ranking Member Beyer, 
Subcommittee members, thank you for allowing me to testify. I 
am honored to speak on behalf of United Power Trades 
Organization, which represents over 600 highly skilled 
operation and maintenance employees who work at the U.S. Army 
Corps of Engineers' hydroelectric projects in Portland, 
Seattle, and Walla Walla Districts of the Northwest Division.
    The dams of the Columbia Snake River System are considered 
multi-purpose in that they provide----
    Mr. Lamborn. Sir, could you put the microphone just a 
little bit closer?
    Mr. Heffling [continuing]. Hydropower, flood control, 
navigation, irrigated agriculture, and recreation to the areas 
where they are located.
    Hydropower is clean, renewable, and plays a significant 
role in Pacific Northwest power production. Only hydropower has 
the instantaneous capability to meet peak demands.
    Navigation is a major benefit of the Columbia Snake River 
System of dams, and provides a vital transportation link for 
the states of Idaho, Montana, Oregon, and Washington. Irrigated 
agriculture is the economic powerhouse of the West, with a net 
value to all western states of over $60 billion. It is the dams 
that provide the water for irrigation, and, as a direct result, 
helps sustain the economy of the Northwest.
    Removal of the Snake River dams would be a detriment to a 
large amount of irrigated agriculture, would eliminate barging 
from Pasco, Washington to Lewiston, Idaho, and would damage the 
electrical infrastructure that relies on the generating units 
not only for power production, but for reactive support to help 
stabilize the electrical grid of the Northwest.
    Studies have shown that the survival rate of salmon 
migrating through the lower Snake River dams is equal to or 
sometimes even better than the survival rate of fish migrating 
rivers without dams. These studies have also shown that 
juvenile salmon transported by fish barges survive at five 
times the rate of those that were not barged. This information 
strongly contradicts any claims by environmental groups that 
the removal of the dams is necessary for fish to survive, and 
that barging juvenile salmon through the dams is ineffective.
    Studies have shown that the vast majority of juvenile fish 
migrating downstream are near the surface, so screens at the 
intakes of the generators are positioned to direct them into 
bypass channels, where they are collected for barge transport, 
or bypassed back to the river. Weirs are in place on spillways 
that allow for spilling water directly from the surface, thus 
providing another effective bypass for juvenile fish traveling 
downstream.
    It is existence of these spillway weirs that make any 
additional spilling unnecessary and, in fact, can have an 
adverse effect on fish due to the increase, and dissolve gases 
that result when spilling from bays that don't have spillway 
weirs. Because of the pressure from outside interests, 
additional spill is ordered that requires spill through spill 
gates that don't have the fish slides installed. This forces 
the fish down through restricted openings at the bottom of the 
spill gates, which is not only harmful to the fish in 
transition, but causes significant increase in the super-
saturation of nitrogen in the water, resulting in gas bubble 
trauma.
    Fish passage plans, also known as the fish biological 
opinion, or BiOp, are in place at each facility and overseen by 
Federal and state biologists to assure that hydro plants are 
operated in criteria most advantageous to fish passage. It is 
extremely important that the current BiOp is not deviated from 
in order to continue the success that has been the result of 
this fish passage plan.
    H.R. 3144 would ensure that it does remain in place, and 
until replaced by a new BiOp that is based on science. The 
residents of the Northwest have made their opinion clear. 
Results of the poll administered in 2015 show that they 
recognize hydropower generated by the Northwest dams is a 
renewable energy source, and that dams and salmon can co-exist.
    In summary, the BiOp is working, is the most scientifically 
sound plan that can be incorporated, and no pressure from 
outside interest groups should change that. The Snake River 
dams are irreplaceable, and are important not only to the 
people that live in our area, but to the Northwest as a whole.
    It took an Act of Congress to get these dams constructed. 
It should require an Act of Congress to remove them.
    Thank you again for this opportunity to testify and I look 
forward to any questions.

    [The prepared statement of Mr. Heffling follows:]
Prepared Statement of Jack W. Heffling, President, United Power Trades 
                       Organization on H.R. 3144
    Thank you for this opportunity to testify. The United Power Trades 
Organization represents the Trades and Crafts non-supervisory employees 
at U.S. Army Corps of Engineers hydroelectric projects in Washington, 
Oregon, Idaho and Montana. These hydroelectric projects make up a 
portion of the Northwest Division of the U.S. Army Corps of Engineers 
and are divided up into the Portland, Seattle and Walla Walla 
Districts. The Walla Walla District includes four hydroelectric 
projects on the lower Snake River that seem to be the target of most 
dam removal proponents.
    The Northwest Division of the U.S. Army Corps of Engineers is a 
major employer and a huge contributor to the economy of the Pacific 
Northwest with an annual budget of over $3 billion and a professional 
workforce of nearly 4,800. The members of the United Power Trades 
Organization include the men and women who maintain and operate the 
equipment at the hydroelectric projects and number over 600. But this 
number doesn't include the engineers, administrators, biologists, park 
rangers and the hundreds of others whose jobs are directly connected to 
the dams, associated lands and reservoirs. Nor does it include the many 
private companies who by contract, also rely on the existence and 
operation of the dams for their employment.
    High technology firms such as Apple, Amazon, Intel, Google and 
Facebook have located facilities in the Northwest because of the 
availability of reliable, clean hydropower, creating jobs and boosting 
local economies. Traditional energy-intensive industries, such as 
timber, paper, chemical, food processing, aluminum and manufacturing 
all representing hundreds of thousands of Northwest jobs, continue to 
rely on low-cost hydro to stay in business and prosper.
    The dams of the Columbia-Snake River system are multipurpose in 
that they provide hydropower, flood control, navigation, irrigated 
agriculture and recreation. The benefits of the dams cannot be measured 
by megawatts alone but in the overall value they provide the region.
    Hydropower is clean, renewable and plays a significant role in 
Pacific Northwest power production. Northwest residents and businesses 
enjoy lower power bills when compared to other regions of the United 
States which is directly attributable to hydropower. The dams of the 
Columbia-Snake River system alone produce enough power to meet the 
needs of more than 13 million homes with the surplus exported, 
providing additional economic importance to the Northwest. Only 
hydropower has the instantaneous capability to meet peak demands and 
provide power for heat when temperatures are frigid or sustain power 
for cooling on exceptionally hot days. Hydropower costs much less to 
produce than any other source such as nuclear, coal or natural gas and 
is pollution free, with zero emissions. The firm power alone provided 
by the dams of the Columbia-Snake River system keeps close to 30 metric 
tons of CO<INF>2</INF> out of the air. This is similar to taking nearly 
6 million cars off the road.
    Hydropower is clean, carbon-free, renewable and reliable. Hydro 
supports wind and other renewables by providing the peaking power 
necessary to meet demand. Hydropower turbines are capable of converting 
90 percent of available energy into electricity, which is more 
efficient than any other form of generation. Even the best fossil fuel 
power plant is only about 50 percent efficient. Wind has about 30 
percent efficiency. After hydropower, 83 percent of the region's energy 
production is from fossil fuels coal or natural gas.
    Considering the four lower Snake River dams alone, it would take 2 
nuclear, 3 coal-fired, or 6 gas-fired power plants to replace their 
annual power production. It would take 3 nuclear, 6 coal-fired, or 14 
gas-fired power plants to provide the peaking capacity of these four 
dams. It has been estimated that the cost to replace these dams with 
natural gas-fired generation would be $444 million to $501 million a 
year. It has also been estimated that it would cost $759 million to 
$837 million a year if these dams were replaced with a combination of 
wind, natural gas and energy efficiency. Electricity from the Northwest 
hydropower facilities typically cost 3 to 10 times less (per megawatt 
hour) than nuclear, coal and natural gas. It is also cheaper than wind 
and solar.
    Hydropower is not only measured by the total energy produced. It 
also stabilizes the transmission system and keeps it reliable. High-
voltage transmission lines require a steady back and forth electric 
flow, and flexible hydro generation meets the changing conditions to 
ensure reliability.
    Navigation is a major benefit of the Columbia-Snake River system of 
dams. They provide 365 miles of navigable water from Portland/Vancouver 
to Lewiston, Idaho. Barging is the lowest cost, most fuel efficient and 
least polluting transportation mode. Each year, barging keeps 700,000 
trucks off the highways through the Columbia River Gorge. The facts 
speak for themselves. The Columbia-Snake River system is the Number one 
wheat export gateway in the United States and the third largest grain 
export gateway in the world, with over 10 million tons of wheat 
exported annually through Columbia River ports. It is the Number one 
barley export gateway in the United States. It is Number one in West 
Coast paper and paper products exports. It is Number one in West Coast 
mineral bulk exports and Number two in West Coast auto imports. Every 
year, more than 50 million tons of commercial cargo moves up and down 
the Columbia and Snake rivers between Astoria, Oregon and Lewiston, 
Idaho.
    Navigation through the Columbia-Snake River system provides a vital 
transportation link for the states of Idaho, Montana, Oregon and 
Washington. The economies of these four states rely on the trade and 
commerce that flows up and down the most important commercial waterway 
of the Northwest. Navigation is fuel efficient. A ton of commodity 
goods can move 524 miles by barge on 1 gallon of fuel, compared to 202 
miles by rail and 59 miles by truck. The average barge can transport 
3,500 tons of wheat which would require 35 jumbo rail cars or 134 
trucks. The economic benefit of the Columbia-Snake River system cannot 
be doubted. A study by the Columbia River ports identified 40,000 port-
related Northwest jobs. Firms that ship cargo via the Columbia River 
employ an additional 59,000 workers annually. Cruise ships carry 15,000 
passengers a year on 5- to 7-day tours on the river, bringing an 
estimated $15 million to $20 million in revenue to local economies. A 
total volume of waterborne trade is expected to expand at an average 
annual rate of 1.7 percent per year through 2030.
    Irrigated Agriculture is the economic powerhouse of the West. The 
net value of irrigated agriculture to all western states is over $60 
billion. Net earned income from agricultural production in the three 
Northwest states exceeds $8 billion annually. Northwest states are the 
leading U.S. producers of apples, potatoes, raspberries, blackberries, 
asparagus, currants, hops, lentils, concord grapes, sweet cherries, 
spearmint and peppermint oil, pears, sweet corn, and frozen peas. All 
of these crops are grown on irrigated land. Northwest exports of 
irrigated agricultural products exceed $1.4 billion annually. Food 
processing in the Northwest adds another $6 billion in sales value just 
for fruit, vegetables and specialty products. Food processing is the 
largest manufacturing employment sector in the state of Idaho and the 
second largest in both Washington and Oregon. The net direct value to 
the economy of one-acre foot of water, when used for irrigation is over 
$60 per acre-foot. The Columbia Basin Project alone supplies about 2.6 
million acre feet per year. It is the dams that provide the water for 
irrigation and as a direct result help sustain the economy of the 
Northwest.
    Annual net earned income from agricultural production in the 
Northwest states exceeds $8 billion and Pacific Northwest food 
processing is the third-largest manufacturing sector, with annual 
revenues of $17 billion and more than 100,000 employees.
    The Walla Walla District employs over 800 people, with over 400 
working at the hydroelectric projects McNary, Ice Harbor, Lower 
Monumental, Little Goose, Lower Granite and Dworshak. In addition to 
being a major employer, the District pumps millions of dollars into the 
local economies. The anticipated Fiscal Year 2012 budget for the 
District is $193 million with 57 percent of this funding coming 
directly from the Bonneville Power Administration (BPA). The power 
produced by the District dams, like other projects in the Northwest, is 
sold by BPA who, in turn, direct funds the operation and maintenance of 
the dams, plus provides additional funding for major work. This means 
that over $100 million annually is provided the area economy as a 
result of the power sales of these District hydroelectric projects.
    Removal of the Snake River dams would be a detriment to a large 
amount of irrigated agriculture, would eliminate barging from Pasco to 
Lewiston, Idaho, and would damage the electrical infrastructure that 
relies on these generating units not only for power production, but for 
reactive support that helps to stabilize the electrical grid of the 
Northwest. While BPA markets power from 31 Federal dams, only the 10 
largest dams keep the Federal power system operating reliably through 
Automatic Generation Control (AGC) which includes the four lower Snake 
River projects. Under AGC, when total generation in the power system 
differs from the total load being consumed, automatic signals go to 
these few dams to increase or decrease generation. This is especially 
critical when generating facilities are suddenly added or dropped from 
the system. Removal of the dams would cost hundreds if not thousands of 
jobs. Jobs at the dams themselves would be lost, contracting jobs would 
be lost, farm jobs would be lost as a result of a large decrease in the 
amount of irrigated agricultural lands, and jobs related to the barging 
of commodities would be lost. The impact on the region would be 
devastating.
    The fact is that science does not support the position that the 
lower Snake River dams need to be removed in order to aid in fish 
survival. Scientists using special acoustic tags planted in fish found 
that the survival rate of Idaho juvenile salmon reaching the ocean 
identical to migrating salmon that originate in the Yakima drainage in 
Washington. In other words, juvenile salmon passing through the four 
Snake River dams suffered no higher mortality rate than those that did 
not. Even more surprising is findings that show the survival rate of 
both Yakima and Clearwater fish was the same as survival measured in 
the Fraser River in British Columbia, a river with no dams. In 
addition, another finding from the research revealed that juvenile 
salmon transported by fish barges survived from Lower Granite Dam to 
the northern tip of Vancouver Island at five times the rate of fish 
that were not barged. This information strongly contradicts any claims 
by environmental groups that the removal of the dams is necessary for 
fish to survive and that barging juvenile salmon through the dams is 
ineffective.
    It is time to eliminate dam removal from the discussion on the best 
way to support migrating fish. Studies have shown that adult fish have 
no problem passing through the dams at extremely high survival rates. 
Studies have also shown that the vast majority of juvenile fish 
migrating downstream are near the surface, so screens at the intakes of 
generators are positioned to direct them into bypass channels where 
they are collected for barge transport or bypassed back to the river. 
Weirs are in place on the spillways that allow for spilling water 
directly from the surface, thus providing another effective bypass for 
juvenile fish traveling downstream. It is the existence of these 
spillway weirs that make any additional spilling unnecessary and, in 
fact, can have an adverse effect on fish due to the increase in 
dissolved gases that result when spilling from bays that don't have the 
spillway weir. Fish passage plans are in place at each facility and 
overseen by Federal and state biologists to assure that hydro plants 
are operated in criteria most advantageous to fish passage.
    ``The utter disappearance of the salmon fishery of the Columbia is 
only a question of a few years.'' That prediction was made by Hollister 
McQuire, Oregon Fish and Game Protector in '94. What makes this quote 
newsworthy is that it was made in 1894, long before the first dam was 
constructed on the Columbia-Snake River system. The decline of Columbia 
River salmon began in the 1800s and was originally attributed to two 
factors: overfishing and environmental degradation from such human 
activities as mining and logging. Millions of dollars have been spent 
during the last couple of decades studying the problem and millions 
more have been spent on making hydroelectric facilities as fish 
friendly as possible, even though studies have shown very little 
difference, if at all, between the decline of salmon runs on rivers 
with and without dams. Too much blame has been placed on the dams when 
it is obvious that no single factor caused the salmon decline.
    And no single factor will solve the problem. Solutions must look at 
all factors impacting salmon decline, including dam operations, fish 
harvest levels, hatchery practices, degradation of habitat where salmon 
lay their eggs and the impact of ocean conditions. R. Hilborn from the 
University of Washington was quoted as saying, ``Any attempts to 
understand the impact of in-river action on survival will be confounded 
by changes in ocean conditions. The poor returns of Chinook salmon in 
the early 1990s are to a large extent almost certainly due to poor 
ocean survival, whether or not they encounter dams.'' My point here is 
that increasing and maintaining fish runs is a multifaceted problem 
that requires solutions to many different factors. Since studies have 
shown that the survival rate of migrating fish is the same on rivers 
with dams as they are without, the focus should be on ocean conditions 
and their impact rather than dam removal which would provide no 
benefit.
    The dams have been upgraded extensively at great cost and the 
improvements work. Dam operation now maximizes attraction water for 
adult fish and improves downstream migration due to flow augmentation 
that also serves to cool the reservoirs during low water months. 
Rotating screens at the turbine intakes direct fish to bypass channels 
where they are collected for barging or bypassed back to the river. And 
spillway weirs are strategically placed to provide a gentle ``slide'' 
for juvenile fish to travel downstream unharmed. Since removal of the 
dams would provide no benefit to fish survival, it makes absolutely no 
sense to continue studying or considering a non-solution.
    The residents of the Northwest have made their opinion clear. The 
results of a poll administered in 2015 shows that three-quarters of the 
people recognize that hydropower generated by the Northwest dams is a 
renewable energy source. Forty-five percent agree hydropower is the 
region's most practical source for meeting energy needs, with wind 
trailing at 17 percent and solar at 9 percent. Two-thirds favor 
hydropower being declared a renewable resource by state legislatures 
and Congress, similar to wind and solar energy. A large and increasing 
majority (70 percent) agree that the dams on the lower Snake River are 
critical to the Northwest's energy picture and 77 percent agree that it 
is critical that dams and salmon co-exist.
    As president and spokesman for the United Power Trades 
Organization, I can say our organization overwhelmingly supports H.R. 
3144. But I am not only just a dam employee representative. I am a 
Senior Power Plant Operator and have been working at one of the lower 
Snake River Dams, Lower Monumental, since 1986. As a power plant 
operator, I run the turbine generator units, the spill gates, plus the 
adult and juvenile fish passage equipment.
    As a power plant operate for over 30 years, I have personally seen 
all of the improvements made at our facility to increase fish survival 
and been the recipient of instructions to operate the dam in accordance 
with the fish passage plan or Biological Opinion (BiOp). Unlike most 
outside interests, I actually understand how the new technologies 
installed had benefited fish passage and how the BiOp works to maximize 
fish survival. Almost every operation performed requires adherence to 
the fish passage plan, including which generating units to run, at what 
power load they are operated at, what spill pattern to use and how much 
spill to release through those spill gates.
    It is troublesome to those of us that know what works to receive 
operating instructions that are not beneficial to fish and may even be 
detrimental. For example, it is a scientific fact that migrating 
juvenile fish travel close to the surface of the river. That is why the 
fish slides installed are so successful in providing a means that allow 
the fish a gentler transition from the pool at the top of the dam to 
that below. Rotating screens are installed in the intakes of all of the 
turbine generators that direct the fish into a collection channel where 
ultimately they can be loaded onto barges for transport or bypassed 
back to the river far below the dam. However, because of pressure from 
outside interests, additional spill is ordered that requires spill 
through spill gates that don't have the fish slides installed. This 
forces the fish down through restricted openings at the bottom of the 
spill gates which is not only harmful to fish in the transition but 
causes significant increases in supersaturation of nitrogen in the 
water resulting in gas bubble trauma.
    In addition, when fish are transitioned via spill, less are 
collected at each dam's fish facility for transport via the barge 
transport program which has proved highly successful. Fish transported 
by barge survive at five times the rate as those that traverse the 
river. Additional water spilled not only is detrimental to the fish 
because of the non-fish slide transition but this results in less water 
available for generation, less generating units running and less fish 
collected for transport via fish barge. Spilled fish are also more 
susceptible to predatory birds and fish that congregate below the 
spillway areas. More spill does not make sense economically in that 
generating revenues are lost, it doesn't help the fish, and may even 
have a negative effect on fish survival.
    H.R. 3144 is important in that it continues the programs that have 
proven extremely successful in migrating fish survival. The BiOp is 
working despite faulty non-scientific reports given by outside 
interests. The radical changes proposed make absolutely no sense. Fish 
returns are higher than what they were prior to the first dam built on 
the Columbia-Snake river system and although hatchery fish are 
returning in large numbers, natural fish return is increasing as well. 
Fish survival through the Columbia-Snake River dams are at levels that 
meet or exceed those on rivers that don't have dams.
    The current BiOp is the most science-based, comprehensive and 
expensive effort to restore and endangered species in the Nation. $1.6 
billion have been invested in new technologies and the eight Federal 
dams on the Columbia-Snake system and operational changes are helping 
young salmon survive at very high rates and helping adult fish return 
to their spawning grounds. This unprecedented and massive program has 
also restored more than 10,000 acres of habitat in the Columbia Basin 
that has been providing incredible results.
    Despite the plan's demonstrated success, environmental and 
commercial fishing groups continue to challenge the plan in court, as 
they have done for over two decades. These groups thrive on lawsuits 
and they will continue to sue, no matter what the facts say. They 
continue to press for extreme changes in dam operations, including 
requiring more spill which would increase Northwest energy costs and 
provide no additional benefit to fish. It is increasingly important 
that Congress take action to insure that the current fish passage plan 
(BiOp) remain in place without changes until a new BiOp is provided 
that uses science as the basis for fish survival. H.R. 3144 would 
ensure this happens.
    H.R. 3144 would also require an Act of Congress to allow any 
structural modification to the Snake River dams that would restrict 
electrical generation or limit navigation. It's about time that the 
extreme proposals via lawsuits of outside interests be taken off the 
table. Enough already! It has already been scientifically proven that 
the dams and fish can co-exist. The improvements made and the 
operational changes have shown to be extremely successful for fish 
survival.
    In 1992, a drawdown of Snake River Dam Lower Granite was performed 
to simulate a return to a natural river state. The drawdown had 
disastrous effects including damaging road, docks and the levee system 
at Lewiston, Idaho. The resulting mud flats were ugly, plus temperature 
and velocity measurements showed no substantial benefit because of 
lower river levels. This kind of study needs to never happen again 
though outside interests would like to see it as a regular occurrence. 
You will find no more vocal proponent of the ``Save the Dams'' movement 
than the good citizens of Lewiston, Idaho as they got to see this 
atrocity in person.
    In summary, the BiOp is working, is the most scientifically sound 
plan that can be incorporated, and no pressure from outside interest 
groups should change that. The Snake River dams are irreplaceable and 
are important not only to the people that live in our area, but to the 
Northwest as a whole. Removal would be disastrous, not only 
economically, but to the lifestyles of those who enjoy the recreational 
benefits they offer. No further money should be wasted on studying 
their removal or taking any actions that even simulate natural river 
flow. It took an Act of Congress to get these dams constructed. It 
should require an Act of Congress to remove them.
    Thank you again for this opportunity to testify before the 
Committee.

                                 *****

The following documents were submitted as supplements to Mr. Heffling's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --Bonneville Power Administration, Graph showing adult salmon 
            returns to the Bonneville Dam from 1938-2014.

    --Northwest River Partners, Irrigated Agriculture: Growing Food for 
            Families, October 2014.

    --Northwest River Partners, Snake River Dams: Valuable Assets, 
            October 2014.

    --Pacific Northwest Waterways Association, Columbia Snake River 
            System Facts.

    --Pacific Northwest Waterways Association, The Value of Hydropower 
            in the Northwest.

    --Salmon Passage Survival Rate map.

    --U.S. Army Corps of Engineers, Spillway Weirs: Celebrating 10 
            years of service to the Nation, January-December 2015.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Hice to Jack Heffling, 
              President, United Power Trades Organization
    Question 1. Why is it that unelected judges and special interests 
are determining operational decisions for dams?

    Answer. The short answer is because they can. Supposedly, the 
judges are enforcing the requirements of the Endangered Species Act. 
However, the problem is that these judges are appointed and have 
political ideologies of their own. Whether they are influenced by 
special interests or just using twisted data provided by these special 
interests to justify their decisions is hard to say. But the bottom 
line is that scientific study, analysis, and direction is discarded in 
favor of decisions that are biased toward the special interests and the 
ideological background of the judge. The resulting judicial decisions 
are then incorporated into the dams operational requirements, often 
counter to scientific recommendation or even harmful to fish passage.

    For example, data shows that salmon returns through the Columbia-
Snake River system are higher now than even before the dams were 
constructed. This success is a result of many factors including habitat 
restoration, favorable oceanic conditions, hatchery production, fish 
barging, improvement of dam fish passage equipment, and the operational 
changes required by fish passage plans. A part of those operational 
changes are voluntary spill requirements. I believe that voluntary 
spill is more harmful than beneficial to migrating fish. It has been 
made part of our operational requirements, I believe, just to placate 
the special interests and a Federal judge who has constantly rejected 
scientific fish recovery plans.

    However, because this voluntary spill has coincided with a 
multitude of other factors that have increased fish survival, it seems 
to be the only factor that is presented by the special interests to the 
Federal judges. The special interests claim, wrongly I might add, that 
the spill is responsible for increased fish survival and the judges 
seem to agree as all we hear is more spill may be ordered by the judge. 
Whether the judge is influence by this faulty interpretation of the 
science or it is his own ideology, I don't know. But it is a broken 
system that needs to be repaired.

    Question 2. Do you think that one judge, who is unaccountable to 
the people his decisions impact, handing down unilateral decisions is 
good governance?

    Answer. Absolutely not! I work for the U.S. Army Corps of Engineers 
at Lower Monumental Dam on the Snake River. At our facility, we have a 
crew of fish biologists who study and oversee the fish passage systems 
at our location. In addition to our agency experts, there are 
additional biologists from the state of Washington, the state of Oregon 
and the state of Idaho. There are experts from National Marine 
Fisheries plus various contractors that are hired by the agencies 
because they are experts in fish passage. This is true at all of the 
dams on the Columbia-Snake River system. How can it be good governance 
for one person who is not an expert to over-ride the operational 
guidance and recommendations of hundreds of experts?

    The last Federal dam on the Columbia-Snake River system was 
completed over 40 years ago. The clean, renewable power, irrigation, 
navigation system and recreational benefits are the norm and have 
become a way of life for the residents of the Northwest and especially 
those that live and work along the rivers. The vast majority of those 
that live in the Northwest support these dams and believe they can co-
exist with fish. That an unelected judge in response to lawsuits by 
out-of-our-area special interests is making decisions concerning how 
the dams are operated or even if they will continue to exist defies 
logic.

    A judge does not represent the thousands whose decisions he 
impacts. These are the Northwest power ratepayers, recreational river 
users, and the thousands whose job relies on the continuation of the 
river system as-is or on the continued abundance of low cost power. If 
a judge is making the decisions biased toward special interests, who is 
going to represent the interests of the majority of the Northwest?

    Question 3. Who should be making these decisions and who is best 
situated to determine what is best for the local environment?

    Answer. In reference to H.R. 3144, I have two different answers. 
One, the operation of the Columbia-Snake River system in a way that 
allow fish and dams to co-exist should be left to the experts who have 
the experience and knowledge on the subject. The Biological Opinion 
(BiOp) for the Federal Columbia River Power System should be adhered to 
without outside interference of any judge or special interest group. 
The BiOp is created cooperatively by the U.S. Army Corps of Engineers, 
the Bonneville Power Administration, and the U.S. Bureau of Reclamation 
with input by NOAA's National Marine Fisheries Service. The BiOp is a 
result of extensive scientific study and should not be deviated from 
for any reason other than updates by those same experts or a new BiOp 
to replace the old.

    Second, it has been proven that dams and salmon can co-exist. 
Studies on the removal of any of the Federal dams on the Columbia-Snake 
River system are a large waste of money. In addition, court ordered 
deviation from operational norms that negatively affect navigation or 
generation is also a waste of money and/or results in increases for 
electrical ratepayers. It was Congress that authorized construction of 
the dams for the purpose of providing low cost, renewable power for the 
people of the Northwest, water for irrigated crops, and an inland 
waterway that is critical to commerce to Washington, Oregon, Idaho and 
Montana. Therefore, no studies or actions that negatively affects the 
purpose of the existence of these Northwest dams should be undertaken 
except when authorized by Congress.

    Question 4. What recommendations do you have to restore operational 
decision making to experts and local stakeholders who are best situated 
to understand the conditions of the local environment?

    Answer. I believe H.R. 3144 takes a good step forward. This would 
require adherence to the current BiOp without outside interference 
until a new BiOp takes its place. It would also require congressional 
approval to even study the removal of the Snake River dams or for any 
structural modifications that would affect navigation or power 
production.

    However, I would go even farther. While the BiOp would remain in 
place to facilitate fish migration, flexibility should be allowed to 
adjust operating criteria based on situational conditions. For example, 
the juvenile fish migrating downstream is not a constant. Due to 
hatchery releases and migration timing, there can be thousands of fish 
passing on a daily basis or a handful. Yet, because of the strict 
requirement to adhere to the BiOp, the dams are operated the same if 
there are thousands of fish passing through or none. We are talking 
millions of wasted generation dollars. Fish traffic can be easily 
tracked and predicted ahead of time. When no fish are running, the dams 
should not be providing voluntary spill, so give the agency that 
operates the dams that flexibility. Thousands of dollars in cost should 
be saving thousands of fish, not a handful.

    Also, the opinions of those that are local to the Columbia-Snake 
river areas should be heard. Their opinions are certainly not 
considered when a judge is making a decision or special interest groups 
that really have no stake in the decisions, but make money through 
litigation, express their biases.

    Yes, sound science needs to be considered when operational 
decisions are made. But also, economic balance needs to be considered. 
Thousands, whose jobs are river-related are affected by these 
decisions. And millions are impacted by the effect on power rates. H.R. 
3144 helps by making sure extreme measures can only be taken when 
approved by the representatives of the people.

                                 ______
                                 

    Mr. Lamborn [presiding]. Thank you.
    Mr. Keppen, you are now recognized for 5 minutes.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                ALLIANCE, KLAMATH FALLS, OREGON

    Mr. Keppen. Chairman Lamborn, Ranking Member Beyer, and 
Subcommittee members, good morning. Mr. Chairman and Mr. Costa 
kind of stole my thunder. I am going to restate the President's 
State of the Union quote. It is my attention-getting device for 
my statement today.
    Mr. Lamborn. Sorry about that.
    Mr. Keppen. So what he said, again, was, ``The Interior 
Department is in charge of salmon while they're in freshwater, 
but the Commerce Department handles them when they're in 
saltwater. And I hear it gets even more complicated once 
they're smoked.'' That was the full quote. I remember it. This 
moment may have provided the first widespread public awareness 
of the absurdity in having multiple Federal agencies 
responsible for enforcing the Federal Endangered Species Act.
    The Family Farm Alliance, who I represent, supports H.R. 
3916. This bill would combine the ESA responsibilities of both 
the National Marine Fisheries Service and the Fish and Wildlife 
Service under one Federal roof. This would promote more 
efficient, effective, and coordinated management of all ESA 
responsibilities for anadromous and freshwater fish in western 
watersheds, from the highest reaches of our headwaters to the 
Pacific Ocean.
    Many western irrigators operate in watersheds that provide 
habitat for threatened and endangered species protected by the 
ESA. These producers could be significantly impacted by 
decisions made by the fisheries agencies. Western watersheds 
that drain to the Pacific Ocean are home to many species of 
fish. Some of these species are listed as endangered or 
threatened under the ESA.
    However, within this group some fall under the 
responsibility of National Marine Fisheries Service, and others 
are overseen by Fish and Wildlife Service. Because they can 
have different migration patterns or life histories, what can 
result is duplicative and sometimes overlapping actions by each 
of the agencies under the Endangered Species Act.
    The scope of similar or identical ESA actions performed by 
each agency could be extensive: designation of critical 
habitat, development of species recovery plans and conservation 
programs, consultation activities, to name just a few. These 
functions would most effectively and efficiently be conducted 
under the roof of one government agency.
    Instead, as things currently stand, they appear to be 
arbitrarily split between two different agencies housed in two 
completely different Federal departments. So, up and down the 
West Coast, duplicative bureaucracies are generating ESA plans 
that sometimes compete with one another. In my written 
testimony, I touch on specific examples, including the Klamath 
Project in California and Oregon, where I live; California's 
Central Valley Project, where I used to live; and the Upper 
Snake River in Idaho.
    In the Klamath example, the two Federal regulatory agencies 
each adopted a single-minded and uncoordinated approach of 
focusing on Klamath Project operations. One sought to 
artificially create high reservoir levels for endangered 
suckers. The other called for artificially high reservoir 
releases for threatened salmon. Unfortunately, both agencies 
did so independent of one another. Based on those regulatory 
actions, the Bureau of Reclamation announced in 2001 that, for 
the first time ever, no water would be available from Upper 
Klamath Lake to supply project irrigators or the national 
wildlife refuges.
    The combined lake level and outflow regulatory requirements 
equated to a volume of water that was more than what was 
available. The resulting impacts to the local community were 
immediate and far-reaching, as detailed in my written 
testimony.
    A Klamath Lake situation with potential dire consequences 
for Idaho water exists in the Snake River Basin. National 
Marine Fisheries Service biological opinion, or BiOp, for the 
Upper Snake River Basin projects requires that water be sent 
downstream for salmon flow augmentation. The Fish and Wildlife 
Service BiOp for bull trout critical habitat requires bank full 
reservoirs in one of the Upper Snake projects. When push comes 
to shove, Idaho water users wonder how they will do both and 
still provide water for farms and communities.
    Water users served by California's Central Valley Project, 
or CVP, face a similar dilemma. Simply put, the delta smelt 
BiOp prepared by the Fish and Wildlife Service requires 
flushing flows released from storage to influence smelt 
habitat. At the same time, the National Marine Fisheries 
Service BiOp for salmon requires keeping water in storage for 
temperature control.
    A committee convened by the National Research Council 
studied this matter a few years ago. The NRC found that the 
lack of a systematic, well-framed, overall analysis between the 
two services is ``a serious scientific deficiency, and it 
likely is related to the ESA's practical limitations as to the 
scope of actions that can or must be considered in a single 
biological opinion.''
    H.R. 3916 addresses these limitations and clears the way 
for improved Bay Delta ESA management. This bill is an 
important step in reducing wasted time and money, and 
represents a practical, common-sense approach to ESA that my 
membership strongly supports.
    Family Farm Alliance stands ready to aid the Committee on 
advancement of H.R. 3916 and other measures to update and 
modernize the ESA.
    Thank you, and I would be happy to answer any questions.

    [The prepared statement of Mr. Keppen follows:]
   Prepared Statement of Dan Keppen, Executive Director, Family Farm 
                         Alliance on H.R. 3916
    Chairman Lamborn, Ranking Member Huffman, and Subcommittee members, 
thank you for this opportunity to present testimony on behalf of the 
Family Farm Alliance (Alliance). My name is Dan Keppen, and I serve as 
the executive director for the Alliance, which advocates for family 
farmers, ranchers, irrigation districts, and allied industries in 17 
western states. The Alliance is focused on one mission--To ensure the 
availability of reliable, affordable irrigation water supplies to 
western farmers and ranchers.
    In his 2011 State of the Union speech, President Obama caught the 
attention of many Westerners when he remarked that ``The Interior 
Department is in charge of salmon while they're in freshwater, but the 
Commerce Department handles them when they're in saltwater. And I hear 
it gets even more complicated once they're smoked.''
    While the President's freshwater/saltwater distinction may not have 
been legally correct, the moment may have provided the first, wide-
spread public acknowledgement of the nonsensical reality associated 
with having multiple Federal agencies responsible for enforcing the 
Endangered Species Act of 1973 (ESA).
    The Alliance supports H.R. 3916, the ``Federally Integrated Species 
Health (FISH) Act.'' This bill would amend the ESA to vest in the 
Secretary of the Interior functions under that Act with respect to 
species of fish that spawn in fresh or estuarine waters and migrate to 
ocean waters (anadromous fish), and species of fish that spawn in ocean 
waters and migrate to fresh waters (catadromous fish). We believe that 
by combining the ESA implementation responsibilities of both NMFS and 
FWS under one Federal roof, we would promote more efficient, effective, 
and coordinated management of all ESA responsibilities for anadromous 
and freshwater fish in western watersheds, from the highest reaches of 
our headwaters to the Pacific Ocean.
     importance of western irrigated agriculture and key challenges
    Irrigated agriculture in the West not only provides a $172 billion 
annual boost to our economy, it also provides important habitat for 
western waterfowl and other wildlife, and its open spaces are treasured 
by citizens throughout the West. Family farmers and ranchers are 
willing to partner with constructive conservation groups and government 
agencies, especially if there are opportunities to both help strengthen 
their businesses and improve the environment.
    Still, many western producers face significant regulatory and 
policy related challenges, brought on--in part--by Federal agency 
implementation of environmental laws like the ESA. The challenges are 
daunting, and they will require innovative solutions. The Family Farm 
Alliance and the farmers and water management organizations we work 
with are dedicated to the pragmatic implementation of actions that seek 
to find a sustainable balance of environmental protection and economic 
prosperity. The foundation for some true, collaborative solutions will 
be driven from the constructive ``center,'' one that steers away from 
the conflict that can ensue between new regulatory over-reach and 
grassroots activism intended to resist any changes to existing 
environmental and natural resource laws, regulations, and policies.
          nmfs and fws nexus with western farmers and ranchers
    The very significant presence of the Federal Government in the West 
presents unique challenges that agricultural producers may not face in 
other parts of the United States, particularly with respect to the 
reach of the ESA. The Federal multi-agency implementation of this law 
has had very significant impacts on how producers manage land and 
water. Importantly, once-nearly guaranteed Federal water supplies that 
were originally developed by the Bureau of Reclamation (Reclamation) 
primarily to support irrigation projects have been targeted and 
redirected to other uses in recent years. So, in the West, the 
certainty of promised federally developed water supplies has now been 
added to the long list of existing ``uncertainties.''
    Many western irrigators--especially those who operate in watersheds 
that provide habitat for threatened and endangered species protected by 
the ESA--are significantly impacted by decisions made by FWS and NMFS. 
ESA consultation decisions made by either or both agencies regarding 
operations plans for Federal water projects like those in the Deschutes 
River Basin (OR), Columbia River Basin (WA/OR/ID/MT), California's 
Central Valley and the Klamath Basin have significantly impacted 
historic operations by rededicating water once used to support 
agricultural irrigation to the perceived needs of fish, frogs and other 
species protected under the ESA. Similarly, non-Federal projects 
developed by local agencies increasingly find themselves constrained by 
the ``take'' prohibition of section 9 of the ESA and accompanying 
regulatory oversight, demands, and permitting system operated by FWS 
and NMFS.
inefficient and wasteful esa implementation in watersheds tributary to 
                              the pacific
    Western watersheds that drain to the Pacific Ocean are home to many 
species of fish, some of which are listed as ``endangered'' or 
``threatened'' under the ESA and fall under the responsibility of NMFS 
and FWS but have different migration patterns or life histories, often 
leading to duplicative and sometimes overlapping actions by each of the 
agencies under the ESA. Several of these species--like the Lost River 
and Short Nose suckers in the Upper Klamath Basin, the Delta Smelt in 
the Sacramento-San Joaquin River & San Francisco Bay-Delta, and the 
bull trout in the Upper Snake River--spend their entire lives in 
freshwater. Other anadromous species--such as the coho salmon in the 
lower Klamath River, Chinook salmon in California's Central Valley, and 
salmon and steelhead in the Columbia River--spawn in freshwater, 
migrate to the ocean to mature, and return to spawn in freshwater. 
Still other species are polymorphic: an individual O.mykiss may live 
its entire life in freshwater, in which case the fish is a rainbow 
trout, or that fish may ultimately spend part of its life in the ocean, 
in which case it is a steelhead and potentially subject to NMFS 
jurisdiction if listed under the ESA.

    The scope of similar or identical ESA actions performed by each 
agency can be extensive:

    <bullet> Section 4 of the ESA requires the listing agency to 
            designate critical habitat for endangered and threatened 
            species.

    <bullet> Section 4(f) of the Act requires the listing agency to 
            develop and implement a ``recovery plan'' for endangered 
            and threatened species.

    <bullet> Section 7(a)1 requires all Federal agencies, through 
            consultation with the listing agency, to use their 
            authority to carry out programs for the ``conservation'' of 
            endangered and threatened species.

    <bullet> Section 7(a)(2) requires all Federal agencies, through 
            consultation with the listing agency, to ensure that 
            actions carried out, funded, or authorized by them do not 
            ``jeopardize'' the continued existence of endangered and 
            threatened species and do not result in ``adverse 
            medication'' of their critical habitat.

    <bullet> Section 9(a)(1) prohibits all persons subject to U.S. 
            jurisdiction from ``taking'' endangered species unless 
            authorized by the listing agency pursuant to appropriate 
            provisions of the ESA; and section 4(d) allows the listing 
            agency to extend the same level of protection to threatened 
            species.

    <bullet> Section 10, particularly 10(a)(1)(B), provides a 
            regulatory mechanism by which FWS or NMFS may authorize 
            parties not connected to a Federal project to obtain 
            authorization for incidental take if the agency makes 
            certain findings.

    It would seem intuitive to many that these functions would most 
effectively and efficiently be conducted under the roof of one 
government agency and not be arbitrarily split between two different 
agencies housed in two completely different Federal departments. In 
fact, up and down the West Coast, duplicative bureaucracies are 
generating ESA plans that sometimes compete with one another, as 
explained in the following three examples. I will start with a more 
detailed treatment of an example that I am most familiar with--
operations of the 112-year old Klamath Irrigation Project, located on 
the California-Oregon state line.
1. Klamath Irrigation Project (CALIFORNIA/OREGON)
    For its first 80 years of operation, Klamath Project irrigation 
supplies proved sufficient to meet the needs of the area's burgeoning 
farming and ranching communities. Although there were some very extreme 
years where Mother Nature and Klamath Project storage capacity proved 
insufficient to meet 100 percent of irrigation demands, shortages were 
small at most as the local community managed to stretch thin supplies 
and make things work. Beginning in the early 1990s, steadily more 
restrictive government agency decisions made to meet ESA goals began to 
steadily chip away at the stored water supply originally developed for 
irrigation. Two sucker species were listed (1988) as endangered and 
coho salmon were listed (1997) as threatened under the ESA. Since then, 
competing biological opinions rendered by FWS (for the suckers) and 
NMFS (for the coho), increasingly emphasized the reallocation of 
Project water as the sole means of avoiding jeopardizing these fish.
    In essence, the two Federal regulatory agencies each adopted a 
single-minded and uncoordinated approach of focusing on Klamath Project 
operations to artificially create high reservoir levels and high 
reservoir releases. Unfortunately, both agencies did so independent of 
one another.
    The net result of increasing restrictions on Klamath Project water 
users was fully realized on April 6, 2001, when Reclamation announced 
its water allocation for the Project after FWS and NMFS officials 
independently finalized their biological opinions (BOs) for project 
operations in a critically dry year. Based on those regulatory actions, 
Reclamation announced that--for the first time in Project's 95-year 
history--no water would be available from Upper Klamath Lake to supply 
Project irrigators or the national wildlife refuges (also managed by 
FWS). The combined lake level and outflow regulatory requirements 
equated to a volume of water that was more than what was available in 
the system.
    The resulting impacts to the local community were immediate and 
far-reaching. Thousands of acres of valuable farmland were left without 
water. In addition to harming those property owners, managers, and farm 
workers, the decision also imparted a negative economic ``ripple'' 
effect throughout the broader community. The wildlife benefits provided 
by those farms--particularly the food provided for area waterfowl--were 
also lost with the water.
    Severe business losses echoed the hardship endured by farmers and 
farm employees. As farmers and laborers attempted to deal with the loss 
of jobs, a year's worth of income, and in some cases loss of the land 
itself, referrals for mental health counseling increased dramatically. 
The Tulelake school district lost around 50 students after farm 
families sold their land and moved on. Students were under stress, 
understandably confused as to why three species of fish were more 
important than their lifelong homes. Veteran homesteaders, who 50 years 
ago were promised reliable federally developed water, felt betrayed by 
that same Federal Government, which chose to provide water to fish 
instead of farmers in 2001.
    It's difficult to envision that the 2001 Klamath Project water 
crisis would have occurred had the two fisheries agencies been housed 
in the same department that also includes the Bureau of Reclamation. 
Plus, FWS also has jurisdiction over the national wildlife refuges 
served by the Klamath Project. FWS managers faced a big enough 
challenge trying to balance the water needs of endangered suckers in 
Klamath Project waterways with those required to support waterfowl, 
bald eagles and other species in its refuges. To this date, it remains 
to be seen who acts as the mediator to balance the water requirements 
of the birds and salmon, the latter of which are overseen by another 
agency--NFMS.
    The National Academy of Sciences (NAS) stepped in after Klamath 
Irrigation Project supplies from Upper Klamath Lake were cut off by 
Federal biological opinions under the ESA in 2001. Sadly, the NAS' 
initial objective scientific review (NAS 2002) \1\ concluded that there 
was insufficient evidence to support these biological opinions in 
restricting agricultural diversions from the Klamath system, which had 
led to the near collapse of the local agricultural community. Here were 
the actions identified in the top recommendation included in the final 
NAS Klamath Report: \2\
---------------------------------------------------------------------------
    \1\ Scientific Evaluation of Biological Opinions on Endangered and 
Threatened Fishes in the Klamath River Basin: Interim Report (2002), 
NAS Board on Environmental Studies and Toxicology (http://dels.nas.edu/
Report/Scientific-Evaluation-Biological-Opinions/10296).
    \2\ Endangered and Threatened Fishes in the Klamath River Basin: 
Causes of Decline and Strategies for Recovery (2004), NAS Board on 
Environmental Studies and Toxicology.

    <bullet> NMFS and USFWS should inventory all governmental, tribal 
            and private actions that are causing unauthorized ``take'' 
            (or killing) of ESA listed fish and seek either to 
            authorize this take with appropriate mitigative measures or 
---------------------------------------------------------------------------
            eliminate it.

    <bullet> NMFS and USFWS should consult not only with Reclamation, 
            but also with other Federal agencies (e.g. U.S. Forest 
            Service) under ESA Section (7).

    <bullet> NMFS and USFWS should use their full authority to control 
            the actions of Federal agencies that impair federally 
            managed lands, not only within but also beyond the Klamath 
            Project.

    <bullet> Within 2 years, NMFS and USFWS should prepare and 
            promulgate species recovery plans.

    <bullet> NMFS and USFWS should pursue opportunities for non-
            regulatory stimulation of recovery actions through the 
            creation of demonstration projects, technical guidance, and 
            extension activities that are intended to encourage and 
            maximize the effectiveness of non-governmental recovery 
            efforts.

    These five general key actions applied to both agencies when it 
appears obvious that one combined agency might do the job better. 
Admittedly, after the 2001 water shutoff, better coordination occurred 
between Federal agencies on Klamath Project operations, ultimately 
leading to the 2013 development of a joint, coordinated Biological 
Opinion by NMFS and FWS. Reclamation and the Services participated in 
extensive interagency coordination over a 2-year period, with the 
purpose of ``collaboratively developing a water management approach 
that has the flexibility to optimize the benefits of available water 
for federally listed species while providing irrigation deliveries to 
the Project.''
    While the joint BO was an encouraging development, the amount of 
work required for two separate agencies housed in different departments 
to develop Reasonable and Prudent Alternatives (RPAs) to avoid 
jeopardizing the continued existence of different individual fish 
species was incredibly inefficient compared to what it would take for 
one agency to oversee the effort. Months of time were dedicated to 
simply addressing edits bouncing back and forth between the two 
agencies. While both agencies attempted to streamline efforts wherever 
possible, each agency had its own internal protocol and authorities to 
satisfy, and those differences required tremendous time and efforts to 
reconcile.
    Consolidating the NMFS functions under the Interior Department 
umbrella, as proposed by H.R. 3916, would put the Secretary of Interior 
in charge of a much more unified approach to managing threatened and 
endangered species in the Klamath River watershed.
2. Snake River (IDAHO)
    A ``Klamath-like'' situation with potential future dire 
consequences for Idaho water exists in the Snake River Basin. The NMFS 
BO for the Upper Snake River Basin Projects (above Hells Canyon) 
requires that water be sent downstream for flow augmentation for 
salmon. On the other hand, the FWS BO for bull trout critical habitat 
requires ``bank full'' reservoirs in the Boise Project, one of the 
Upper Snake Projects. When push comes to shove--similar to what 
happened in the Klamath Basin--Idaho water users wonder, ``how do we do 
both, and still provide water for our farms and communities?''
3. Central Valley Project (CALIFORNIA)
    Water users served by the Central Valley Project (CVP) at one time 
had a fairly assured sense--early in the year, before planting and 
other farm management decisions needed to be made--of what their water 
supplies would be for the upcoming year. At the beginning of the year, 
the Bureau of Reclamation and the California Department of Water 
Resources (DWR) issues a water supply forecast and anticipated 
allocations for the various state urban, agricultural, and 
environmental water users based on snowpack in the mountains and 
anticipated weather conditions. However, in recent years, those once-
reliable forecasts have been complicated by new regulations, 
litigation, and agency administrative directives. Farmers now regard 
water allocations with a sense of uncertainty which has helped to 
destabilize some agricultural decision making and profitability within 
the CVP.
    Since 1977, a multitude of government regulatory and policy 
decisions have reduced the average water supply for CVP South of Delta 
agricultural service contractors (farmers and ranchers in the San 
Joaquin Valley who receive water from the CVP) from 90 percent of their 
contracted deliveries to 40 percent of their contracted deliveries. In 
2014 and 2015, agricultural contractors on the west side of the San 
Joaquin Valley received zero CVP supplies. In 2016, they received 5 
percent supply.
    In short, state and Federal regulations have reduced water supply 
availability. Within this mix, NMFS is responsible for a biological 
opinion for winter-run Chinook salmon which requires CVP operations to 
meet specific temperature criteria in the Upper Sacramento River. In 
recent years, NMFS has taken drastic measure to leave water intended 
for users downstream of Shasta Dam behind the dam, for fear of 
violating those temperature criteria. In its 2009 Salmon Biological 
Opinion, NMFS biologists and hydrologists concluded that water pumping 
operations in the CVP and State Water Project (SWP) should be changed 
to ensure survival of salmon, steelhead, green sturgeon, and killer 
whales, which rely on salmon runs for food. Meanwhile, since 1994, FWS 
has issued biological opinions to avoid jeopardizing the continued 
existence of the Sacramento-San Joaquin River Delta (Delta) smelt.
    CVP water use is further constrained by the 1997 Central Valley 
Project Improvement Act (CVPIA), which includes an Anadromous Fish 
Restoration Program that seeks to at least double the natural 
production of anadromous fish in Central Valley streams in the long 
term. CVPIA Section 3406(b)(2) provides 800,000 acre-feet of CVP water 
to use, in part, to achieve the fish doubling goal (which has yet to be 
met). The 2000 Trinity River Restoration Plan further reduced the 
amount of CVP water diverted from the Trinity River watershed to the 
Central Valley, in an effort to provide flow-driven fishery restoration 
actions in the Trinity system.
    In general, the focus of the ``reasonable and prudent'' 
alternatives to the coordinated export operations of the CVP and SWP 
has been increased regulatory restrictions on water exports to farmers 
in the San Joaquin Valley.
    In 2009 (and in 2014, 2015 and 2106), irrigation delivery 
restrictions--based in large part on ESA biological opinions for 
fishery species managed by either FWS or NMFS in the Delta--were a 
primary cause for the water cutbacks and rationing afflicting a 
multitude of communities throughout the state and the resulting 
economic devastation in the San Joaquin Valley. In California in 2016 
alone, 21,000 jobs were lost, equating to a $2.7 billion hit to 
economic activity. Over 540,000 acres of farmland were fallowed, and $2 
billion in direct farm losses were realized. The lack of surface water 
to such a productive agricultural region has detrimentally impacted 
groundwater use and the economy of those communities, as well as the 
state. Ironically, one of the original purposes of the CVP was to shift 
San Joaquin well users away from groundwater by importing stored 
surface water supplies. Now, 70 years later, farmers and ranchers are 
again looking belowground to replace once-reliable CVP surface water 
that has been reduced due to drought and redirection to other uses.
    In very simple terms, the Delta smelt BO prepared by FWS requires 
flushing flows released from storage to manipulate habitat while the 
FWS BO for salmon requires keeping water in storage for temperature 
control, situation remarkably similar to the Klamath example previously 
discussed. The FISH Act would improve things in California, as well. 
There, a committee convened by the National Research Council \3\ found 
that the lack of a systematic, well-framed overall analysis between 
NMFS and FWS is ``a serious scientific deficiency, and it likely is 
related to the ESA's practical limitations as to the scope of actions 
that can or must be considered in a single biological opinion.''
---------------------------------------------------------------------------
    \3\ A Scientific Assessment of Alternatives for Reducing Water 
Management Effects on Threatened and Endangered Fishes in California's 
Bay Delta (2010), Committee on Sustainable Water and Environmental 
Management in the California Bay-Delta, Water Science and Technology 
Board, Ocean Studies Board, Division on Earth and Life Studies, 
National Research Council.
---------------------------------------------------------------------------
    ``Coordination is not integration,'' the NRC committee found, and 
concluded, ``[T]he [Reasonable and Prudent Alternatives] lack an 
integrated quantitative analytical framework that ties the various 
actions together within species, between smelt and salmonid species, 
and across the watershed. This type of systematic, formalized analysis, 
although likely beyond the two agencies' legal obligations when 
rendering two separate biological opinions, is necessary to provide an 
objective determination of the net effect of all their actions on the 
listed species and on water users.'' (emphasis added).

    H.R. 3916 would open the doors toward such an objective 
determination in Bay-Delta ESA management.
4. Incidental Take Statements Pursued by Local Agencies and Farmers 
        (WESTERN U.S.)
    Finally, although the examples above relate to watersheds where 
there is a Federal project operated by Reclamation, similar issues can 
be present in basins where local agencies and/or farmers or ranchers 
themselves pursue incidental take permits (ITS) under the ESA. If there 
are both freshwater and anadromous species in the river system, the 
local interests must apply to both NMFS and FWS for separate ITPs for 
the same project and experience duplicative or conflicting regulatory 
procedures and determinations in a process that is very challenging 
under the best of circumstances. This sort of waste of resources can be 
avoided if there is one decision maker applying the law.
                               conclusion
    Again, the Alliance believes combining NMFS and FWS under one roof 
will provide for more efficient, effective, and coordinated management 
of all ESA responsibilities for anadromous and freshwater fish in 
western watersheds, from the highest reaches of headwater areas to the 
Pacific Ocean. Even more important is what can be accomplished in the 
future, as FWS further emphasizes and expands on its collaborative 
freshwater fish habitat conservation work with local and state 
interests. With NMFS ESA duties brought under the Interior Department 
umbrella, a partnership-driven focus can spread to areas that benefit 
anadromous fish. Merging the NMFS ESA duties with those of FWS and 
tapping into the ``constructive center'' will lead to practical 
solutions that fit for ranchers, farmers, and other landowners, as well 
as fish and wildlife and local communities.
    The time and money wasted by Federal agencies and those impacted by 
their decisions is frustrating and unnecessary. H.R. 3916 is important 
step in reducing wasted time and money and represents a practical, 
common-sense change to the Act that we strongly support. The FISH Act 
provides an opportunity to enhance protections to threatened and 
endangered species by improving the efficiency and effectiveness of the 
Federal Government's approach to species protection through better 
decision making as a result of improved communication among folks 
working on a range of species in the course of developing and 
implementing policies. Perhaps more importantly, this legislation will 
help lay the groundwork for more collaborative conservation that 
ultimately and equally will benefit communities, citizens and fish 
species that inhabit fresh and saltwater environments.
    One additional point. While the goals of the ESA are laudable, this 
44-year-old law could stand some targeted reforms, including common-
sense changes to make it work better, encourage incentive-driven 
recovery efforts, and discourage litigation. The Family Farm Alliance 
for decades has worked with our members and leaders to develop 
specific, practical changes to the ESA that we think will make it work 
better in the modern era.
    The Family Farm Alliance stands ready to aid the Committee on 
advancement of H.R. 3916 and other measures to update and modernize the 
ESA. I would be happy to answer any questions.

                                 ______
                                 

    Mr. Lamborn. All right, thank you. And thank you all for 
your testimony and for being here today.
    At this point we will begin our questions for the 
witnesses. To allow all of our Members to participate, and to 
ensure we can hear from all of our witnesses today, under 
Committee Rule 3(d), Members are limited to 5 minutes for their 
questions. I will begin, and then we will hear from the Ranking 
Member, and so on.
    Ms. Looney, as we have heard today, the operations of the 
Federal Columbia River Power System have been clouded with 
uncertainty for decades. During this period, the people who are 
impacted the most are the region's taxpayers, whose electricity 
bills continue to increase, with negative impacts on the 
economy and on working families.
    Much of this uncertainty can be attributed to the 
litigation and the court mandates that have micro-managed the 
system's operations. Do you believe that having the courts 
running the dams is good for ratepayers and species?
    Ms. Looney. No, I do not believe that having the courts run 
the dam is good for ratepayers or for the species. One thing 
that concerns me most about this issue is the decisions that I 
am going to have to make in the next couple of years.
    As Bonneville's fourth-largest customer, in the next 4 to 5 
years, we will be making a decision about whether we go under a 
new contract with Bonneville for power supply post-2028. And 
right now their cost trajectory is greater than the available 
resources that I can buy.
    In my testimony, I indicated that I buy 80 percent of my 
power from Bonneville, and I buy the other 20 percent at a 
third cheaper. When you think about what is going on in the 
Northwest markets, all the fundamentals are there. And what is 
driving Bonneville's costs are predominantly the costs 
associated with mitigating for fish, which is about 30 percent 
of my total wholesale power supply cost.
    Mr. Lamborn. If I could jump in right there because I have 
a limited time. If Bonneville, as the fourth-biggest customer, 
has to buy from other sources, where does that electricity from 
other sources come from? Does it come from clean hydropower?
    Ms. Looney. It can, yes. We actually buy a lot of power 
from Canada. So, if we pick up from their hydro systems in the 
north, we can buy from there. We can buy from renewable 
resources that are in place in the Northwest, and we can also 
buy from California. So, there is a plentiful supply in the 
region.
    Mr. Lamborn. But do you sometimes have to buy from either 
nuclear or fossil fuel sources?
    Ms. Looney. Sometimes we have undesignated resources that 
we will purchase. But for the most part, we do know where that 
power supply is coming from, and it is renewable.
    Mr. Lamborn. When there are spillovers that are mandated, 
that is lost hydropower potential. Where does Bonneville get 
its replacement electricity to supply its contractual 
obligations when water has been flowing over, spilling over, 
without generating any electricity?
    Ms. Looney. Bonneville too must buy that power from the 
same available sources in the region in order to cover their 
obligations to their preference customers.
    Mr. Lamborn. Mr. Heffling, if I could ask you a question, 
are the arguments in favor of species mitigation entirely 
reasonable on your part, or is there a possibility that some 
people have an ulterior motive in wanting to make dams 
unprofitable so they will, in their dreams, have to be torn 
down?
    Mr. Heffling. Yes, I have seen testimony or talked to 
environmental groups that are just made up of attorneys that 
earn their living by suing the Federal Government, and I 
believe that is all there is left on tearing down these Snake 
River dams. It has already been proven that the fish and the 
dams can co-exist. And I see no reason for outside interests to 
influence that.
    Mr. Lamborn. Well, it sounds to me like that is an abuse of 
the Endangered Species Act, and it is for an ulterior, 
unrevealed, and hidden motive. Would you agree with that?
    Mr. Heffling. I would agree. We have had judges, I think, 
that have been influenced by bad information and myths and just 
bad scientific data or manipulated data that does not present 
the facts as they are.
    Mr. Lamborn. Mr. Keppen, would you care to weigh in on that 
same question?
    Mr. Keppen. Yes. Our organization has been all about trying 
to find constructive ways to make the ESA work better. And the 
litigation and some of these sort of back-room settlements 
involve a lot of western species. I am glad this Committee has 
paid attention to that, and has offered some bills to deal with 
it.
    Mr. Lamborn. All right. Thank you all for being here, and 
for your valuable testimony. At this point, I will yield to the 
Ranking Member for any questions he might have.
    Mr. Beyer. Thank you, Mr. Chairman. I just want to begin 
with a simple statement that I love hydropower. As someone who 
thinks that all the science in climate change is real, 
developing hydropower is very important for us.
    Mr. Mikkelsen, we have this balance of power, the 
executive, the congressional, the judicial. The District Court 
of Oregon ruled that the 2014 BiOp was arbitrary and 
capricious. It said the current dam operations under the 2014 
biological opinion cannot ensure the survival or recovery of 
the fish and are vastly unresponsive to their current 
biological needs. And there were thousands of pages of 
testimony and a long hearing.
    Why was there no appeal? If the science was bad, if the 
ruling was bad, why not appeal to a higher court? And then why, 
instead, take a legislative approach for something that would 
probably pass this House and be dead on arrival in the Senate?
    Mr. Mikkelsen. I would have to defer the question on why 
there was no appeal to the Department of Justice on that, sir.
    Mr. Beyer. I just find it curious.
    Ms. Hamilton, in your testimony you said, ``Existing salmon 
policies have already wasted more than $10 billion on a series 
of insufficient measures that have failed to recover a single 
one of the 13 protected populations of salmon and steelhead.'' 
Yet, Member McMorris Rodgers talked about 96 percent recovery. 
Ms. Looney talks about 96 to 98 percent performance standard 
testing.
    How do you reconcile these 96 and 98 percent numbers with 
your concern that they failed to--and even, in fact, your 
notion that you had 1.27 million salmon that is coming up. You 
know, you can't rent a boat for 6 months, so----
    Ms. Hamilton. Those numbers were results from a spill 
program that was put in place by the court. Unfortunately, we 
could not get the agencies to support that without presenting 
our science in front of the court.
    I will give you an analogy about what the 97 percent means, 
and it is variable at the different dams. But let's say you had 
to go through 10 toll booths and at every toll booth I took 5 
percent of your money. By the time you got to the bottom of 10 
toll booths, I have quite a bit of your money in my pocket. 
That is one example.
    The other thing is that you are running out of gas as you 
slow down to go through each one of those, and that is what 
happens to the baby salmon. They lose energy by the time they 
get to the ocean to go back to that.
    So, when we measure concrete to concrete, it is like 
saying, OK, on an assembly line I put 35 bolts in your car, but 
I am not responsible for whether the car runs or not--so 
measuring babies past concrete is not measuring adults back. 
So, the way we get smolt-to-adult returns is by spill. It has 
been monitored and measured for over two decades, and that is 
what we know about spill and the benefits of it.
    Mr. Beyer. Perfect transition, because you, in your text 
and your speech, write extensively about how effective spills 
are.
    Let me quote Mr. Heffling. ``When fish are transitioned via 
spill, less are collected for transport via the barge transport 
system. Fish transported by barge survive at five times the 
rate as those that traverse the river. Spilled fish are more 
susceptible to predatory birds and fish that congregate below 
the spillways. And it doesn't help the fish and may even have a 
negative effect on fish survival.''
    How do you respond to his criticisms of spills and fish?
    Ms. Hamilton. Well, again, we have a decades-long study 
that looks at fish that are spilled, fish that are put in 
barges, fish that are bypassed through these Rube Goldberg 
slides. And what the data shows is, year in and year out, we 
get more adults back by spilling them over the tops of the 
dams. It is just the best methodology that we have.
    Mr. Beyer. And this is measuring at the end point, when 
they hit the ocean----
    Ms. Hamilton. I mean do you want your car to drive, or do 
you want 35 bolts in it, right? What we want are adults back. 
And when there is overwhelming evidence that spilling gets the 
adults back, that is the important part.
    When I mentioned that we noticed this in the 1990s, it was 
not based on studies, it was fishermen who watched the river. 
And we noticed, on years of high spill from over generation 
mostly--which is what the spring is like in the Northwest, it 
is a lot of over-gen, we have a lot of dams, a lot of water--
what we noticed is we got a lot of adult returns back. So, 
simple fishermen were noticing something that, decades later, 
science has really proved out.
    Mr. Beyer. Great. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Lamborn. Thank you.
    Representative Webster.
    Mr. Webster. Thank you, Mr. Chair. A couple of questions 
that I had you have asked, and I appreciate that. I would like 
to go into that further, though.
    Ms. Looney, when you have to go out and buy power from some 
other source other than your current source, what is the price 
per kilowatt difference, or percentage, or something like that?
    Ms. Looney. On Monday, we purchased Fiscal Year 2019 around 
the clock for $22.60, and Bonneville is currently at $37, so it 
is about a third cheaper.
    Mr. Webster. So, is there a potential, I guess, if you were 
to, say, eliminate all that power and had to go somewhere else, 
is there enough surplus available? Is there potential for 
brown-outs, or what would be the result?
    Ms. Looney. Being the fourth-largest customer, there is 
enough available for me. But if the other three large customers 
decide that they want to pay a third less, as well, and we all 
go out looking for additional power, it would put pressure on 
the availability in the region.
    Mr. Webster. From a capacity standpoint?
    Ms. Looney. Correct.
    Mr. Webster. OK, thank you.
    Chair, I would like to yield the rest of my time to Mr. 
LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Webster. I appreciate this 
legislation brought forward by Mr. Calvert, and certainly will 
provide clarity on how people are supposed to manage water 
supplies.
    Indeed, Shasta Dam and Shasta Lake are in my district, and 
to have competing agencies with opposite missions, one saying 
we need to let more water out of the dam for fisheries and the 
other saying you need to keep more water in the dam for cold 
water later in the year, really puts people in conflict. And 
the people caught in the middle are the customers, including 
much of Ag. that depends on Sacramento River water.
    In one of these hearing rooms a year or two ago, it was 
unsure how full the lake would have to be before spring 
releases would be released to agriculture. So, how is any 
farmer or any other water user supposed to make a plan with 
their lenders or anybody else, when the Federal Government 
cannot get its act together to decide whether water is going to 
be released or kept behind the dam for cold water?
    But it is interesting on the panel today, much discussion 
about keeping dams in place and dam removal, fish being able to 
co-exist with dams. And we have a very hot issue up in the 
north part of my district, as well as part of Oregon in Mr. 
Walden's district, with the hell-bent effort to remove four 
dams on the Klamath River with very, I think, incomplete 
science--incomplete is being generous on that. Yet, we have 
seen little change in the direction of that in this new 
Administration, and my constituents are very disappointed that 
they are not being heard on this.
    Mr. Mikkelsen, you completed another tour of the area, I 
think, 2 days ago, and heard from constituents. They don't feel 
like they are being heard. And you have sent a response letter 
to my initial letter that was sent to Secretary Zinke that 
basically said we received your letter and we all need to work 
together.
    But some of the important topics that I brought up in that 
letter have to do with the process of the facilitators there 
for the previous Secretary's approval of the Klamath Dam 
removal, yet some very important information was ignored.
    Did you get a chance, Mr. Mikkelsen, to review the letter 
that I--in our previous meeting about a week-and-a-half ago--
from Mr. Paul Houser, whose credentials include being the 
science advisor for the Bureau of Reclamation or the Scientific 
Integrity Officer previously for the Bureau of Reclamation, as 
well? Did you get a chance to review that document?
    Mr. Mikkelsen. Yes, sir.
    Mr. LaMalfa. Previously, the one from when we met? You had 
a chance to look at the Houser document, the subject being the 
allegation of scientific and scholarly misconduct and reprisal 
for a disclosure concerning the biased summarization of key 
scientific conclusions for the Klamath River Dam removal 
secretarial determination process, that document?
    Mr. Mikkelsen. Yes.
    Mr. LaMalfa. And later on, Mr. Houser was dismissed for his 
role in that because it seems that his goals with that were 
just scientific. He wasn't biased on this, but the scientific 
goals did not go with Secretary Salazar's desire announced 
before the science to remove the dams.
    So, did you get a chance to review this today or 
previously, when I asked you to?
    Mr. Mikkelsen. I have reviewed what Mr. Houser's 
allegations were, and the response of the independent science 
review panel.
    Mr. LaMalfa. OK. My time is over for now. I yield back, Mr. 
Chairman.
    Mr. Lamborn. OK. Representative Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member, for holding this important Subcommittee hearing. I also 
want to thank Congressman Ken Calvert for his efforts on this 
legislation, of which I am a co-sponsor, because it really 
builds upon our previous efforts that include the WIIN Act that 
we passed last December that provides greater flexibility for 5 
years, plus authorizing four different reservoirs, storage 
facilities, in California, and a lot of other good things.
    But let me just really explain this to the members of the 
Subcommittee, because the legislation that Mr. Calvert has 
introduced that we are co-sponsoring is all about common sense 
and logic, which too often gets lost in Congress. Let me give 
you an anecdotal story to point this out.
    The legislation that created NOAA was back in 1973 during 
the Nixon administration. And there was bipartisan support for 
creating NOAA. The Secretary of the Interior at the time 
happened to be a Wally Hickel, who was a former governor of 
Alaska. The Secretary of the Interior made some comments that 
were in disagreement with the President on Vietnam, and the 
President was furious. Sound familiar? The Cabinet Secretary 
said something he didn't like. So, President Nixon said, ``The 
only way I am going to approve NOAA, I don't want to see it in 
Interior.'' So, the compromise was, let's put it in Commerce. 
OK? That is how this happened.
    So, we get stuck in our own positions here, but that is the 
real story. So, what we are trying to do is make some common 
sense out of this, common sense and logic.
    Mr. Keppen, you mentioned in your testimony that many areas 
across the country face duplicative and often conflictive 
actions proposed by the U.S. Fish and Wildlife and NOAA 
Fisheries in an attempt to preserve and ultimately recover 
species that are listed under the Endangered Species Act. That 
is true. I have experienced that in California and other parts 
of the country.
    The fact is that the conflicting operational decisions, for 
example, have impacted areas like the Sacramento/San Joaquin 
Delta area, as Congressman Calvert mentioned earlier, as well 
as in Ventura County, where we have, again, these conflicts 
with NOAA prioritizing, keeping water upstream in reservoirs 
for temperature management, while the U.S. Fish and Wildlife 
Service proposes releasing significant volumes of water 
downstream for experiments to increase the recovery of species.
    I mean, they are not on the same page. The duplicative and 
inconsistent management we are seeing makes no logical sense, 
and it harms the communities in the San Joaquin Valley and 
across the Nation, and it does nothing--beg to differ with 
you--for helping the recovery of the species. It seems to me if 
they are in the same department, as President Obama suggested, 
and they are talking to each other, they could be on the same 
page with the biologists and the other folks that are managing 
the species.
    Last year alone, with the greatest rain and snowpack in 
California ever recorded--which came on the heels of the worst 
5-year drought in history--we had these conflicting actions 
taking place, unfortunately, too often. Non-senior water right 
holders across California that ended up preventing plantings 
and negatively impacting the economy that I felt in my 
district, as well as in Congressman Denham's district. 
Congressman LaMalfa's constituents, as he pointed out, were 
impacted. Congressman Denham's constituents were impacted by 
the damages of this.
    We argued last year between August and September, between 
releasing water, as to whether or not it was at 56 degrees 
temperature or whether it was at 55 degrees temperature, which 
was better for the recovery of the salmon, which then was in 
conflict with the other agency for the recovery of the delta 
smelt. It makes no sense.
    So, this bill, while a far cry from what I would like to 
see, which is that NOAA Fisheries management budget be moved to 
the Department of the Interior--and that was mentioned earlier 
by the Ranking Member, but I think we can work that out, that 
is not rocket science, that is doable--which would provide 
consistent regulatory action for all species with a portion of 
their life cycle in inland waters.
    Additionally, these conflicting requirements could be 
reduced and be eliminated through an integrated biological 
opinion for smelt, Chinook salmon, steelhead, which NOAA 
Fisheries is resistant to developing, despite, as Mr. Keppen 
said, the National Research Council stating that that would 
lead to a preferable outcome.
    I have a couple questions. I don't have much time.
    Mr. Keppen, can you provide an example of how the 
integrated biological opinion in the Klamath, as a comparison, 
has functioned more effectively than what we have had with 
separate biological opinions in the Sacramento/San Joaquin 
Delta?
    Mr. Keppen. Sure, Congressman Costa, although I believe 
this is kind of a new development. My testimony focused on what 
happened in 2001. We began to get all kinds of national 
attention dealing with that issue, because the National Academy 
of Sciences actually got involved there, too, came back and 
said the decisions that were made by both agencies were not 
completely justified.
    I think, as far as--oh, I am sorry, I lost my train of 
thought all of a sudden. I was thinking about Klamath. Your 
question was?
    Mr. Costa. Instead of having one biological opinion for the 
Klamath----
    Mr. Keppen. Yes, I am sorry. So, they have done it in 
Klamath over the last several years. It took a couple of years 
to develop. I think it is actually the first joint biological 
opinion between the Fish and Wildlife Service and the National 
Marine Fisheries Service that has been conducted in the West. 
And my understanding is it is operating better. It has been 
litigated.
    But even with that said, I am not quite sure that it would 
be as efficient as having both agencies under the same roof.
    Mr. Costa. Which you could then better more logically 
produce and reproduce on the life cycle of this species.
    Mr. Keppen. Right, right.
    Mr. Costa. Absolutely. Common-sense logic.
    Mr. Keppen. Right.
    Mr. Costa. That is what this is about.
    Mr. Lamborn. Representative Gosar.
    Dr. Gosar. Thank you, Mr. Chairman.
    Ms. Hamilton, for full public disclosure, you and your 
association are currently one of the current plaintiffs in the 
Federal Columbia River Power System litigation that has 
challenged multiple Federal dam biological opinions over the 
past two decades or so. Is that correct?
    Ms. Hamilton. Yes, sir. We are.
    Dr. Gosar. Thank you. In January of this year, you said, 
and I quote, ``Gold-plating dams may not be in our future 
because they are outdated, they have outlived their purpose, 
and are causing, most of us think, more harm than good. Then we 
need to stop investing in them. It is just a waste of money.'' 
I kind of find it interesting. Most of us? I am not one of 
them.
    I understand that just four ESA listed subspecies of salmon 
migrate through the Snake River dams, and at least nine other 
populations flow through other Federal and non-Federal dams on 
the Columbia, including Bonneville Dam and several public 
utility district-owned dams. Do you believe that all the 
Federal and non-Federal power-producing dams on the Columbia 
River system are outdated and a waste of time? Do you believe 
that they should all be removed? And, if not, which ones should 
stay? And why are they the ones that are OK?
    Ms. Hamilton. Thank you for the question. Yes, when I see 
the four lower Snake River dams are remanded to be reviewed for 
costs and benefits, then I disagree and our organization 
disagrees with spending money for them to stay in place while 
the studies are in place.
    That said, we are pretty optimistic about the benefits of 
spill. So, I am not sure that this dams-versus-salmon debate or 
the environment-versus-jobs debate aren't false choices.
    We are keenly interested in seeing how spill works.
    Dr. Gosar. Well, for clarity here, I am also a fisherman. 
In fact, my first job was fly tying, as a small child. So, from 
that standpoint.
    For the rest of the panel, we will go in reverse order, 
from the right to the left--the Federal dams, Federal Power 
Act, and a number of other laws require congressional 
authorization, meaning that they are long-standing policies 
affecting these dams. Do you believe Congress should continue 
to have this authority, relative to the Federal, Columbia, and 
Snake River Dams? Starting from the right and moving back.
    Mr. Heffling. Yes, I agree with that position, thank you.
    Dr. Gosar. The gentleman to the right. Young lady?
    Ms. Looney. Yes.
    Mr. Mikkelsen. Yes.
    Dr. Gosar. Thank you. I am going to yield the rest of my 
time to Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Gosar.
    Coming back to Mr. Mikkelsen on that, you have told me and 
then several others up in the district there that you really 
have a pretty keen interest in the situation up at Klamath. And 
I think you told Secretary Zinke that you wouldn't come back to 
Washington, DC from retirement unless you got to handle, 
basically, the Klamath Project.
    What is your particular interest in the Klamath Dam removal 
project that would hinge on taking the acting role?
    Mr. Mikkelsen. I would say that is probably a bit of a 
mischaracterization of any communication I had with the 
Secretary on that particular----
    Mr. LaMalfa. Well, that is what you tell people in the 
district. So, OK.
    Mr. Mikkelsen. I have said that I volunteered for the 
Klamath, as a matter of professional interest, because I have 
about 35 years of experience with respect to conflict 
resolution on natural resource issues.
    Mr. LaMalfa. Does conflict resolution involve listening 
closely to both sides of an issue?
    Mr. Mikkelsen. Yes.
    Mr. LaMalfa. OK. The people that are opposed to dam removal 
still don't believe that they are being heard up there, as a 
result of a couple of tours recently.
    I asked you about the Houser document a few minutes ago. 
What did you conclude from the charges brought forth by Mr. 
Houser, who, again, was summarily dismissed when his views 
didn't seem to line up with the previous administration on the 
science involved with the dam removal? What did you conclude 
from that document? It was submitted February 24, 2012.
    Mr. Mikkelsen. The Houser document referred to a criticism 
of a departmental press release, as I understand it. And in 
response to all of the allegations that were made here by Mr. 
Houser, the Department did institute an independent science 
review panel that went through that. And the science review 
panel did criticize the press release and how the press release 
was handled with respect to the specificity of some numbers.
    But they also upheld the Department's action in doing so. 
And that was an independent science review panel.
    Mr. LaMalfa. That is over a press release. Well, I will 
continue.
    I yield back, Mr. Chairman.
    Mr. Lamborn. OK, and you will have some time in a moment. 
But first we will hear questions from Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
the Committee for being here this morning.
    My questions are for you, Commissioner Mikkelsen. And this 
is for the record.
    In 1986, Congress added Texas and the insular areas as 
reclamation states. Commissioner Mikkelsen, are you aware that 
Guam is eligible for reclamation funding, and has been for 
three decades, 30 years?
    Mr. Mikkelsen. Yes, I am.
    Ms. Bordallo. All right.
    Mr. Mikkelsen. That Public Law 99-396 added that.
    Ms. Bordallo. All right, thank you. Question 2, can you 
pledge that Reclamation will provide all due consideration to 
any funding requests from eligible applicants on Guam, 
including our government agency, the Guam Waterworks Authority? 
Is it yes or no?
    Mr. Mikkelsen. Yes.
    Ms. Bordallo. Yes.
    Mr. Mikkelsen. To the point that, understand that 
Reclamation's grant program is a competitive process.
    Ms. Bordallo. Right. My third question--many are surprised 
to learn that tropical islands can face water supply 
challenges, including groundwater contamination, and even 
drought. Are you willing to explore how Reclamation's expertise 
can help Guam and other insular areas to further improve their 
public water systems and better manage water resources?
    Mr. Mikkelsen. The short answer to that is yes. I would 
note that we have had one application from a territory in the 
Northern Mariana Islands that was selected for our WaterSMART 
grants. They are using about $300,000 in Federal funding with 
another $300,000 in local funding to install 1,000 new advanced 
water meters for both agriculture and domestic customers.
    And I would say that entities that are located in the 
territories listed are also eligible for all those other parts 
of WaterSMART title 16 cooperative watershed management 
programs, but we have not received applications for funding 
from the U.S. territories for those particular programs.
    Ms. Bordallo. Thank you. Thank you, Commissioner. I just 
wanted this on record.
    Last, I am pleased that this Committee and our Chairman 
have committed to do all that we can within our jurisdiction to 
help Puerto Rico and the U.S. Virgin Islands as they rebuild 
from recent hurricanes. Will you pledge, Commissioner, that 
Reclamation will do its part by providing all due consideration 
to any funding requests from eligible applicants on the Virgin 
Islands? Congress made the U.S. Virgin Islands eligible for 
Reclamation funding back in 1986.
    Mr. Mikkelsen. That is correct, under Public Law 99-396. 
And as required by statute, Reclamation does use a competitive 
process to identify those projects for grant programs. Each 
application will be thoroughly reviewed and scored in a 
described manner that everybody has access to.
    Ms. Bordallo. Thank you. I thank the Commissioner.
    Mr. Chairman, I ask these questions because many times the 
territories are forgotten. You have been on Guam, so you know 
how far we are and the needs that come about, just like any 
other state.
    Mr. Lamborn. Many times. And I think that has always been 
at your invitation.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    And, Mr. Chairman, I would like to enter into the record my 
comments on H.R. 3916.
    Mr. Lamborn. With no objection, so ordered.
    Ms. Bordallo. Thank you, and I yield back.
    Mr. Lamborn. Representative LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I will resume with 
that letter with Mr. Mikkelsen here.
    In order to get it on the record, two of the charges Mr. 
Houser made in submitting that letter--one was, Number one was 
intentional falsification.
    Motivated by Secretary Salazar's publicly-stated 2009 
intention to issue a secretarial determination in favor of 
removing four dams on the Klamath River, which was due March 
31, 2012, the Department of the Interior has followed a course 
of action to construct support for such an outcome. An example 
of this intentional biased falsification reporting the 
scientific results is contained in the September 21, 2011, 
called the ``Summary of Key Conclusions Draft EIS ER and 
Related Scientific Technical Reports.'' Other examples are 
provided by third parties.
    You talk about the press release. Yes, that is included in 
the second portion of the letter. And I will conserve time on 
that. But what we have is a problem, that the science involved 
is not being taken into account by an unbiased party here. 
Indeed, it looks like a conclusion that is being carried 
forward, unfortunately, under this Administration's officers.
    Are you aware also of another document submitted by a 
gentleman named Stephen Coshi that would talk about the 
deconstruction of the earthen dams, the Iron Gate and the J.C. 
Boyle Dam, that were reviewed by people that have no experience 
with earthen dams, with concrete dams. This document talks 
about the technical aspects of removing a dam, and it has a 
clay core with gravel and other material covering that.
    The peril of removing such a dam and the expertise that was 
submitted by people that have no experience with that, indeed, 
are people that reviewed that and said it was OK, are folks 
that are from the--this letter was submitted to a Thomas 
Hepler, who is the team leader of The Waterways and Concrete 
Dam Group in Denver, Colorado.
    The letter talks about stability of slopes in 
deconstructing these earthen dams, where you have 174 feet that 
have been under water for a very long time, and that the 
drawdown on that would have an effect on slope stability, 
therefore collapsing into the river, as well as the--I cannot 
go into all the technical aspects of the clay core of the dams, 
but the issues involved with the clay causing collapse once the 
water starts to inundate that, even after the dam drawdown has 
been completed.
    Has that been taken into account in the deconstruction 
process of the two earthen dams on the system?
    Mr. Mikkelsen. Reclamation is not involved in the removal 
of these dams, so I would probably have to refer that question 
to the KRRC, as successor in interest to PacifiCorp, sir.
    Mr. LaMalfa. OK. Well, it evidently has not been. One of my 
requests I made of the Secretary early on in this 
Administration in April in a letter was one of three things, 
and that would include--since science is incomplete by many 
different accounts, I request that the Secretary withdraw the 
previous Secretary's approval of the Klamath Dam removal and 
inform the Federal Energy Regulatory Commission of the 
withdrawal, so decisions are not made without all the science.
    Indeed, it was 20 million cubic yards of material sitting 
behind the four dams that would then infect the rest of the 
river after they are removed. That has been completely glossed 
over in the process.
    Now, we have had some less-than-forthright process, as 
well, with the formation of the removal corporation KRRC, a 
colleague that you mentioned, Mr. Ed Sheetz, who we had worked 
with to try to have our office and others be included in open 
hearings on what the KRRC was going to be doing, going forward. 
And we did not have that forthright interaction with the 
elected member or the general public, the way it should have. 
Indeed, secret meetings were held in this whole process.
    So, I am going to once again ask the Secretary to withdraw 
the previous approval of the removal and this process, and ask 
the Secretary to put someone else as the facilitator up there 
in the Klamath system, because our people are not being heard.
    With that I yield back, Mr. Chairman.
    Mr. Lamborn. Representative Gianforte.
    Mr. Gianforte. Thank you, Mr. Chairman and Ranking Member. 
I want to thank the panelists for being here, for your 
testimony.
    Mr. Mikkelsen, as a fellow Montanan, a special welcome to 
you. Thank you for being here.
    Mr. Mikkelsen. Thank you.
    Mr. Gianforte. Mr. Heffling, you gave testimony today that, 
based on the scientific data you have, there is a 97 percent 
survival rate through the dams of the salmon. We have also 
heard that we have seen record returns of adult salmon into the 
rivers.
    Based on the scientific data you have available to you, and 
your opinion, is it your belief that the dams have virtually no 
impact on the salmon?
    Mr. Heffling. Yes, that would be correct. I mean they have 
minute impact because there are small mortality rates. But that 
is in any river, no matter what obstacles they come up against. 
And I believe that the plans we have in place now definitely 
facilitate----
    Mr. Gianforte. So, virtually no impact on the salmon, from 
the dams as they exist?
    Mr. Heffling. No.
    Mr. Gianforte. Thank you.
    And Ms. Looney, I have met with members of the Montana 
Electric Co-ops, who have talked to me about the ongoing 
problems with the Columbia River System. In Montana, we have 
about 130,000 families, farms and ranches, small businesses 
that get their power from the Bonneville Power Administration, 
just as your customers do.
    These dams are one of the largest providers of carbon-free, 
renewable energy in the area. Yet, we continue to make them 
economically inefficient. And you testified yourself that costs 
are going up dramatically: $600 million a year, 37 percent 
increase--by my calculation without compounding--in rates.
    My question is, we just heard that these dams have no 
impact on the salmon, and yet we have continuous litigation. 
What do you think the point of the litigation is? Is it about 
long-term viability of the salmon? We just heard the scientific 
data says that is not the reason. Is it that? Or is it really 
just an attempt to remove all the dams?
    Ms. Looney. Thank you. Excellent question. I do have one of 
my members, Lincoln Electric Cooperative, in Montana.
    I think it depends on which party you are looking at. I 
think some do have an agenda for dam removal. I think some 
truly believe that the science that they are referring to is 
the accurate science. However, I believe that the Federal 
science is the accurate science, and that Federal science is 
what we will be operating under if we can continue with this 
bill. We will be operating under that Federal science, as we do 
today, until a new biological opinion is created after the NEPA 
process.
    Mr. Gianforte. OK. You also testified that an awful lot of 
money has been spent to improve these dams to negate any 
potential negative impact on the salmon. Is it also your belief 
that the scientific data shows that these dams have virtually 
no impact on the salmon?
    Ms. Looney. Yes, that is correct.
    Mr. Gianforte. OK, thank you.
    And Mr. Keppen, Ag. is our Number one industry in Montana. 
And I am asking an obvious question, but for a farmer ranch 
that depends on irrigation water that might be diverted from 
one of these dams, if I run a farm and I have relied on the 
irrigation water--you testified that, in fact, in certain cases 
this water is turned off. Could you just describe the impact on 
a farmer of not getting irrigation water?
    Mr. Keppen. Sure, thanks. Actually, I think the first time 
I ever testified before one of these committees was after the 
2001 water shut-off in Klamath Falls. I used to run the Klamath 
Water Users Association, which represents those irrigators. And 
it is terrible. I kind of mentioned it in my written testimony.
    Not only are the farmers impacted, but the surrounding 
environment, the National Wildlife Refuges, there is a ripple 
effect that hits, obviously, the tractor suppliers, the 
fertilizer dealers, the business community. There was a 
tremendous rise in anti-depressants that were prescribed by 
local pharmacists. And those were just the short-term impacts.
    I think in our community it was about a $300 million impact 
in 1 year. Generally Ag., right now, creates about a $600 
million boost to our economy.
    And then, what I testified on back in 2002 before the 
Senate Energy and Natural Resources Committee was the lasting 
effects, when you have----
    Mr. Gianforte. But for an individual family farm who is 
dependent on water, for that family, what did they experience?
    Mr. Keppen. Oh, it is terrible. Without water, you cannot 
produce food. And some people were able to drill wells and have 
a back-up supply. That creates sort of a have versus have-nots. 
It creates a terrible dynamic in the community. It is something 
I never want to go through again.
    And not only that, the following year, if you have not 
irrigated and produced on your land, you get weed problems, 
equipment that hasn't been used for a year. There is just a 
long range of impacts that last. Not just like a 1-year sort of 
an impact.
    Mr. Gianforte. Great, thank you.
    I will yield back, Mr. Chairman.
    Mr. Lamborn. Thank you.
    Representative Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. I want to thank the 
members of the panel for coming here this morning and helping 
us through this important conversation about an issue that is 
of primary importance to my district. I represent the central 
part of Washington State. Many of these dams that we are 
talking about, if they are not in my district, they certainly 
impact me directly. So, I want to thank everybody on the 
Committee, too, their interest in helping to solve this 
important issue.
    And certainly to welcome one of my constituents, Mr. 
Heffling, I appreciate your coming here and talking directly 
from your knowledge of these matters. He has an extensive 
background that I think is very important to this conversation. 
Thank you for that, as well as everyone else that brings their 
expertise this morning.
    One of the drawbacks of being the last one to ask questions 
is that a lot of things have been asked already. They are very 
important. But just to, I guess, underscore some of the points 
that have been made, we all know that there has been a 
tremendous amount of scientific research that has gone into the 
successful passage of fish through dam structures, monitoring 
processes, lots of technologies that have increased the 
survival rates for these listed species, particularly in the 
Columbia River system.
    So, Mr. Heffling, you have already made the point that--I 
think you said that dams and salmon can co-exist. I think 
several people have made that point this morning. I guess I 
would like to give you the opportunity to talk a little bit 
more about this ongoing debate that we have this morning about 
the 97 percent or 95 or 98 percent survival rate that we are 
experiencing right now that demonstrate to me the very 
successful co-existence of the fish and the dams. Is there 
anything else you would like to add to that?
    Mr. Heffling. Yes, there has been a lot of talk, with all 
due respect to Ms. Hamilton, about increasing spill. And, I 
kind of chuckle at that, because we already have spill 
incorporated into the current BiOp. And I talked previously 
about super-saturation of nitrogen into the water.
    Mr. Newhouse. Right.
    Mr. Heffling. Well, this has a cumulative effect through 
each of the dams that spill water.
    So, right now, even though we are ordered to spill water 
for some augmentation and fish passage, we are limited by--that 
dissolved gas is measured by the agency--so we are limited to 
our spill to where our dissolved gas levels are at. Even if 
there was some kind of order to increase spill, it could not be 
done without being incredibly dangerous to the fish.
    So, I don't understand where some of this increased spill 
comes from, but it is not what works. The increase in fish 
survival has been multi-functional. It has been barging, it has 
been fish screens in the intakes of the turbines. It has been 
RSWs that are actually a simple device, they are not Rube 
Goldberg at all. They are very expensive devices, but they have 
been successful.
    So, it is not spill that has really increased the survival 
rate, it is all the ways that we have improved the structures 
to pass fish, plus--I am a power plant operator, myself, and 
have to abide by the fish passage plan, which is based on the 
BiOp. Everything we do, what generator we start, at what level 
we run the generation, what spill we are at, all of this is 
according to this fish passage plan that is meant for increased 
survival of the fish, so we are doing everything possible to 
maintain that.
    Mr. Newhouse. The crux of the question here is the current 
biological opinion. Just for the record, would you agree that 
the current BiOp is working, that it is vital in order to 
support the Federal Columbia River Power System, as well as 
allowing salmon to continue recovering at their record rates 
that we see?
    Mr. Heffling. Oh, I would definitely agree that BiOp is 
what has actually worked, and that is why we have an increase 
in returns.
    Mr. Newhouse. Good, I appreciate that. And there are still 
people talking about removal of the dams, particularly the 
Snake River dams. Could you talk a little bit from your 
experiences what it would take to replace these dams, as far as 
power generation? Perhaps more nuclear? What other kind of 
things that might be necessary?
    Mr. Heffling. Yes, for the lower Snake River dams, it would 
probably take 2 nuclear, maybe 3 coal-fired, 6 gas-fired power 
plants, just to replace the annual power production. For 
peaking capacity, you are talking about 3 nuclear, 6 coal-
fired, or 14 gas-fired power plants to provide just that peak 
capacity.
    But these dams are more important than just what they can 
generate annually, or whatever. These plans that are on the 
Snake River Columbia System are run under what BPA called AGC, 
and that is Automatic Gain Control. Peak power is not just a 
certain time of year, it is daily. When everybody gets up in 
the morning, turns their heat up, starts making their 
breakfast, the need for power rises way up, and in the evening, 
when people come home from work.
    So, that is the main function of these dams, peak power. We 
go to full load in the morning, we go to full load in the 
evening. You cannot request wind, ``Come on, blow harder 
because we need you right now,'' and you cannot say, ``Well, 
come out, sun, we need peak power right now.'' That can only be 
done by these types of projects.
    Mr. Newhouse. Thank you.
    Mr. Chairman, my time is up, but I want to thank you for 
holding this hearing, and also express my appreciation to 
Congresswoman McMorris Rodgers for her main sponsorship of this 
bill. And I look forward to working with you.
    Mr. Lamborn. All right. I would like to thank all the 
witnesses for their valuable testimony. You have come a long 
way to be here, and I and all of us appreciate that.
    Members of the Subcommittee may have additional questions 
for you, and we would ask that you respond to these in writing. 
Under Committee Rule 3(o), members of the Committee must submit 
questions to the Clerk within 3 business days following the 
hearing. And the hearing record will be open for 10 business 
days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

 Statement for the Record from the Department of the Interior 
            on H.R. 3916, dated October 12, 2017.

 Statement for the Record from Representative Bordallo on H.R. 
            3916, undated.

Rep. Huffman Submissions

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from the Orca Salmon Alliance commenting 
            on H.R. 3144, dated October 11, 2017.

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from the Save Our Wild Salmon Coalition 
            commenting on H.R. 3144, dated October 11, 2017.

    --  Letter addressed to Scott Spellmon of the Army Corps of 
            Engineers, Elliot Mainzer of Bonneville Power 
            Administration, and Lorri Lee of the Bureau of 
            Reclamation from the Orca Salmon Alliance 
            commenting on the Scoping, Columbia River System 
            Operations Environmental Impact Statement, dated 
            February 5, 2017.

    --  Letter addressed to the U.S. Army Corps of Engineers 
            Northwestern Division from EarthJustice commenting 
            on the Scoping, Columbia River System Operations 
            Environmental Impact Statement, dated February 6, 
            2017.

    --  Open letter to ``Policymakers'' discussing H.R. 3144, 
            signed by multiple organizations, dated August 23, 
            2017.

    --  Research article titled, ``Population growth is limited 
            by nutritional impacts on pregnancy success in 
            endangered Southern Resident killer whales by 
            Samuel Wasser, Jessica Lundin, Katherine Ayres, 
            Elizabeth Seely, Deborah Giles, Kenneth Balcomb, 
            Jennifer Hempelmann, Kim Parsons, and Rebecca 
            Booth, published June 29, 2017.

    --  Opinion article written by Josh Mills titled, ``Bill 
            would rubber-stamp salmon failure,'' dated August 
            11, 2017.

    --  Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Pacific Coast Federation of 
            Fishermen's Associations commenting on H.R. 3144, 
            dated October 9, 2017.

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from the NW Energy Coalition commenting on 
            H.R. 3144, dated October 11, 2017.

    --  Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from American Rivers commenting on H.R. 
            3144, dated October 12, 2017.

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from the Alaska Trollers Association 
            commenting on H.R. 3144, dated October 9, 2017.

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from Jeremy Brown, President of the 
            Coastal Trollers Association commenting on H.R. 
            3144, undated.

    --  Letter addressed to Chairman Bishop, Chairman Lamborn, 
            Ranking Member Grijalva, and Ranking Member Huffman 
            from John Twa commenting on H.R. 3144, dated 
            October 12, 2017.

    --  Letter addressed Chairman Bishop, Chairman Lamborn, 
            Ranking Member Grijalva, and Ranking Member Huffman 
            from the Northwest Resource Information Center 
            commenting on H.R. 3144, dated October 12, 2017.

    --  Open letter from James Waddell, commenting on H.R. 
            3144, undated.

    --  Letter addressed to Chairman Bishop, Chairman Lamborn, 
            Ranking Member Grijalva, and Ranking Member Huffman 
            from Idaho Rivers United commenting on H.R. 3144, 
            dated October 11, 2017.

    --  Open letter from multiple groups commenting on H.R. 
            3144 and H.R. 3916, dated October 11, 2017.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
